Report No. D-2009-108                September 23, 2009




                  U.S. Air Forces Central
               War Reserve Materiel Contract
Additional Information and Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (703) 604-8932, or by mail:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations
ACO                           Administrative Contracting Officer
AFCENT                        U.S. Air Forces Central
CLIN                          Contract Line Item Number
DCAA                          Defense Contract Audit Agency
DFARS                         Defense Federal Acquisition Regulation Supplement
FAR                           Federal Acquisition Regulation
FDO                           Fee Determining Official
FMR                           Financial Management Regulation
HMMWV                         High Mobility Multipurpose Wheeled Vehicle
MMC                           Minor Military Construction
QAE                           Quality Assurance Evaluator
PCO                           Procurement Contracting Officer
SLIN                          Sub-Contract Line Item Number
U.S.C.                        United States Code
WRM                           War Reserve Materiel
                                  INSPECTOR GENERAL
                                DEPARTMENT OF DEFENSE
                                 400 ARMY NAVY DRIVE
                            ARLINGTON, VIRGINIA 22202-4704




                                                                      September ~3, 2009

MEMORANDUM FOR ASSISTANT SECRETARY OF THE AIR FORCE
               (FINANCIAL MANAGEMENT AND COMPTROLLER)
              AUDITOR GENERAL, DEPARTMENT OF THE AIR FORCE
              DIRECTOR, DEFENSE CONTRACT AUDIT AGENCY

SUBJECT: U.S. Air Forces Central War Reserve Materiel Contract (Report No. D-2009-
          108)


We are providing this report for review and comment. We considered management
comments on a draft of the report in preparing the final report.

DOD Directive 7650.3 requires that all recommendations be resolved promptly. The
comments from the Acquisition and Management Integration Center, Air Combat
Command, were partially responsive. Therefore, we request additional comments on
Recommendation C.3 by October 23,2009.

If possible, please send a .pdf file containing your comments to audacm@dodig.mil.
Copies of the management comments must contain the actual signature of the authorizing
official. We are unable to accept the /Signed/ symbol in place of the actual signature. If
you arrange to send classified comments electronically, you must send them over the
SECRET Internet Protocol Router Network (SIPRNET).

We appreciate the courtesies extended to the staff. Please direct questions to me at (703)
604-8901 (DSN 664-8901).




                                             Mary L. Ugo e
                                             Deputy Inspector General for Auditing
Report No. D-2009-108 (Project No. D2008-D000CK-0161.000)                September 23, 2009



               Results in Brief: U.S. Air Forces Central War
               Reserve Materiel Contract
                                                       oversee the sale of Government property. As a
What We Did                                            result of issues raised during the audit, Air
The audit objective was to determine whether           Force officials revoked the contracting officer’s
Air Force contracting officials managed and            warrant in September 2008.
administered the DynCorp International
(DynCorp) war reserve materiel contract in             What We Recommend
accordance with Federal and DOD contracting            We recommend the Assistant Secretary of the
policies.                                              Air Force (Financial Management and
                                                       Comptroller) initiate a preliminary review of the
What We Found                                          potential violations of the Antideficiency Act
U.S. Air Forces Central officials did not              related to $56 million obligated to the contract
effectively manage or administer the war               for minor military construction. We
reserve materiel contract in accordance with           recommend the Commander, U.S. Air Forces
Federal or DOD policies or provide sufficient          Central, ensure the war reserve materiel contract
oversight of contract administration actions and       is appropriately closed out. We recommend the
decisions. The contracting officer:                    Director, Acquisition Management and
                                                       Integration Center, Air Combat Command,
                                                       improve war reserve materiel contract
      could not provide basic, general
                                                       management and oversight. We recommend the
       information and documentation on the
                                                       Regional Director, Central Region, Defense
       contract;
                                                       Contract Audit Agency, conduct a cost audit of
      executed 75 of the 120 contract
                                                       the contract that ended on September 30, 2008,
       modifications that did not completely
                                                       to identify unallowable costs.
       define or specify the work to be
       accomplished by DynCorp;
      did not effectively monitor or track
                                                       Management Comments and
       $161.1 million in costs incurred on the         Our Response
       contract and frequently failed to               Comments from the Assistant Secretary of the
       document key decisions;                         Air Force (Financial Management and
      inappropriately authorized $893,160 in          Comptroller); the Commander, U.S. Air Forces
       award fees after actual costs were              Central; the Air Force Program Executive
       determined, resulting in a prohibited           Officer for Combat and Mission Support; and
       cost-plus-a-percentage-of-cost system of        the Regional Director, Central Region, Defense
       contracting; and                                Contract Audit Agency, were responsive. The
      improperly obligated $6 million and as          comments from the Acquisition and
       much as $56 million in Operations and           Management Integration Center, Air Combat
       Maintenance funds for minor military            Command were partially responsive; therefore,
       construction projects.                          we request additional comments regarding
                                                       minor military construction project acceptance.
We identified potential monetary benefits              Please see the recommendation table on the
totaling approximately $273,000 because                back of this page.
contracting personnel did not adequately

                                                   i
Report No. D-2009-108 (Project No. D2008-D000CK-0161.000)     September 23, 2009


Recommendations Table
Management                       Recommendations            No Additional Comments
                                 Requiring Comment          Required
Assistant Secretary of the Air                              D.1, D.2
Force (Financial Management
and Comptroller)

Commander, U.S. Air Forces                                  A.1, E.1, F.1
Central

Director, Acquisition            C.3                        A.2, B.1, C.1, C.2, E.2, F.2,
Management and Integration                                  G, H.1, H.2
Center, Air Combat Command
Air Force Program Executive                                 A.3
Officer for Combat
And Mission Support
Regional Director, Central                                  A.4, B.2
Region, Defense
Contract Audit Agency


Please provide comments by October 23, 2009.




                                          ii
Table of Contents

Introduction                                                   1

      Objective                                                1
      Background                                               1
      Review of Internal Controls                              3

Finding A. Contract Management and Administration              4

      Recommendations, Management Comments, and Our Response   15

Finding B. Contract Funding, Expenditures, and Payments        18

      Recommendations, Management Comments, and Our Response   26

Finding C. Minor Military Construction                         29

      Recommendations, Management Comments, and Our Response   37

Finding D. Bona Fide Needs Rule                                39

      Recommendations, Management Comments, and Our Response   45

Finding E. Award Fee                                           47

      Recommendations, Management Comments, and Our Response   53

Finding F. Government Property                                 55

      Recommendations, Management Comments, and Our Response   61

Finding G. Scope Considerations                                64

      Recommendation, Management Comments, and Our Response    69
Finding H. Contract Quality Assurance                          70

      Recommendations, Management Comments, and Our Response   72

Appendix: Scope and Methodology                                74

      Prior Coverage                                           75

Management Comments

      Department of the Air Force                              76
      Defense Contract Audit Agency                            89
Introduction

Objective
The audit objective was to determine whether Air Force contracting officials managed
and administered the DynCorp International (DynCorp) war reserve materiel (WRM)
contract in accordance with Federal and DOD contracting policies. This audit was
performed based on a referral from the Defense Criminal Investigative Service.


Background
The U.S. Air Forces Central (AFCENT) utilized the WRM contract to provide support
for deployed forces in Southwest Asia by pre-positioning, maintaining, reconstituting,1
deploying, and supporting war reserve materiel required to support U.S. Central
Command operational plans and contingencies. AFCENT-managed WRM operating
locations include Seeb, Oman; Thumrait, Oman; Masirah, Oman; Al Udeid, Qatar;
Manama, Bahrain; Al Jaber, Kuwait; Al Dhafra, United Arab Emirates; and Albany,
Georgia. The AFCENT Logistics Directorate had overall responsibility for the WRM
program.

The WRM program comprises nine functional areas:

        the supply functional area manager oversees the mobility readiness spares
         packages for fuels mobility support equipment, basic expeditionary airfield
         resources, and aerospace ground equipment WRM assets;
        the vehicles functional area manager is responsible for AFCENT vehicle
         operations and maintaining the fleet of AFCENT vehicles;
        the fuels mobility support equipment functional area manager is responsible for
         prepositioning air transportable fuels assets;
        the functional area manager responsible for all tanks, racks, adapters, and pylons
         is also responsible for alternate mission equipment, including external fuel tanks,
         weapons pylons, missile launchers, and weapons loaders;
        the medical functional area manager oversees medical WRM sites in Seeb, Oman;
         Thumrait, Oman; and Manama, Bahrain. The medical sites include blood donor
         centers, air transportable clinics, and shelter first aid kits;
        the munitions functional area manager oversees the WRM munitions stockpile in
         the AFCENT area of responsibility and facilitates movement of munitions from
         the theater to the continental United States;



1
 Air Force Instruction 25-101, “WRM Program Guidance and Procedures,” defines reconstitution as
measures taken to bring required resources together in appropriate quantities to restore an effective U.S. Air
Force operational force or support function after being used.

                                                      1
       the basic expeditionary airfield resources2 functional area manager is responsible
        for recommending maintenance, repair, and reconstitution of basic expeditionary
        airfield resource assets;
       the aerospace ground equipment functional area manager is responsible for
        coordinating the movement of aerospace ground equipment throughout the
        AFCENT area of responsibility, including power carts, air compressors, light
        carts, air conditioners, bomb loaders, and munitions handling equipment; and
       the traffic management office functional area manager is responsible for the
        management function involved in the movement of cargo and equipment.

WRM Contract
The Air Force Air Combat Command awarded the WRM contract, F44650-00-C0006, as
a cost-plus-award-fee contract to DynCorp in April 2000, with an estimated value of
$174.1 million. The contract ended on September 30, 2008, with a total contract value of
$621 million. The WRM contracting officer was located at AFCENT headquarters, Shaw
Air Force Base, South Carolina, and two administrative contracting officers (ACOs) were
located in Southwest Asia near the DynCorp program office.

The basic WRM contract consisted of a 2-month phase-in period from May 2000 through
June 2000; a 3-month base year from July 2000 through September 20003; six 1-year
options from FY 2001 through FY 2006; and two extension periods from October 2006
through September 2008. The WRM contracting officer established 83 contract line item
numbers (CLINs) and 579 sub-contract line item numbers (SLINs) to track funding on
the WRM contract throughout the life of the contract.

Quality Assurance Evaluators (QAEs), located in Muscat, Oman, were responsible for
oversight and evaluation of DynCorp performance.4 The QAEs performed periodic
inspections to evaluate DynCorp compliance with WRM contract quality standards. The
QAEs documented DynCorp performance for historical and award fee evaluation
purposes and submitted inspection reports to the quality assurance program coordinator
for consolidation. The quality assurance program coordinator consolidated all QAE
surveillances for each award fee period into quality assurance surveillance reports.

Memorandum to Assistant Secretary of the Air Force
(Contracting)
The audit team issued a memorandum to the Deputy Assistant Secretary of the Air Force
(Contracting) on September 23, 2008, stating that audit fieldwork identified a lack of
contract management, administration, and oversight at the program management and
contracting officer levels. Additionally, the memorandum stated that the audit fieldwork


2
  Basic expeditionary airfield resources consist of a variety of systems and equipment that, when combined,
make up the infrastructure needed to establish an air base in a deployed environment.
3
  The phase-in period for the Qatar operating site was 153 days; therefore, the base year did not apply to
Qatar.
4
  The QAEs worked for the Executive Coordinating Agency that reported to the AFCENT Logistics
Directorate.

                                                    2
identified that the WRM contract files were poorly maintained and did not sufficiently
document decisions made by contracting officials. As a result of the memorandum, Air
Force Air Combat Command officials terminated the WRM contracting officer’s warrant
on September 24, 2008.


New WRM Contract
Air Force Air Combat Command personnel stated that they competed and awarded a new
WRM contract, FA4890-08-C-0004, to DynCorp on June 11, 2008, as a hybrid firm-
fixed-price and cost-plus-award-fee contract. The total estimated contract value for the
base year and 7 option years was $420.4 million.


Review of Internal Controls
We identified internal control weaknesses in the WRM contract as defined by DOD
Instruction 5010.40, “Managers’ Internal Control (MIC) Program Procedures,” January 4,
2006. The Air Force’s internal controls were not properly implemented because
AFCENT did not follow Federal and DOD policies. The Defense Contract Audit
Agency’s (DCAA) internal controls were not properly implemented because DCAA did
not follow DCAA Contract Audit Manual policies and procedures. Implementing the
recommendations will improve the current WRM contract, AFCENT internal controls,
and DCAA internal controls. We will provide a copy of this report to the senior official
responsible for internal controls for the Department of the Air Force and DCAA.




                                           3
Finding A. Contract Management and
Administration
AFCENT officials did not effectively manage or administer a cost-plus-award-fee
contract with numerous undefined requirements for WRM in accordance with Federal or
DOD policies. AFCENT officials also did not provide sufficient oversight of contract
administration actions and decisions. The WRM contracting officer could not provide
basic, general information and documentation on the WRM contract, or reliable or
complete information on the WRM services rendered by DynCorp.

Specifically, the contracting officer:

      executed 75 of the 120 contract modifications that did not completely define or
       specify the work to be accomplished by DynCorp or provide sufficient
       information to protect DOD interests (finding B);
      did not effectively monitor or track $161.1 million in costs incurred on the
       contract and frequently failed to document key decisions (findings B and E);
      could not identify the minor military construction (MMC) projects funded by the
       WRM contract and could not link obligated funds to MMC projects (findings C
       and D);
      improperly administered portions of the contract, valued at $893,160, as a
       prohibited cost-plus-a-percentage-of-cost system of contracting (finding E);
      could not account for all sales of Government property (finding F);
      could not provide a Justification and Approval for Other Than Full and Open
       Competition for requirements, valued at $23.5 million, that were executed under
       the WRM contract but that were outside the scope of the original performance
       work statement (finding G); and
      could not provide QAE’s surveillance reports for the first 5 years of the contract
       (finding H).

As a result, AFCENT officials could not accurately account for $161.1 million of the
$621 million obligated to the WRM contract.



WRM Contract and Performance Requirements
In April 2000, Air Force Air Combat Command officials awarded a cost-plus-award-fee
contract to DynCorp for managing prepositioned war reserve materiel in Southwest Asia.
The WRM program was not managed by an engaged program manager who
acknowledged his program management responsibilities, and the WRM contracting
officer did not have an appropriate chain of command for ensuring independent, unbiased
actions and decisions for most of the WRM contract performance period. In addition, the
contracting officer had two WRM ACOs in Southwest Asia, but the contracting officer
constrained them from executing effective contract administration oversight.

                                            4
Contract Type
A cost-plus-award-fee contract is a type of cost-reimbursement contract that provides for
payment of allowable incurred costs. Cost-reimbursement contracts:

      establish a total cost estimate for the purpose of obligating funds and establishing
       a ceiling that the contractor may not exceed without the approval of the
       contracting officer,
      are suitable when uncertainties involved in contract performance do not permit
       costs to be estimated with sufficient accuracy to use any type of fixed-price
       contract, and
      place minimal responsibility for the performance costs on the contractor.

A cost-plus-award-fee contract provides for the negotiation of estimated costs and an
award fee. The fee consists of a base amount fixed at the beginning of the contract and
an award amount based on a judgmental evaluation of contractor performance by the
Government. A cost-plus-award-fee contract should contain specific acquisition
objectives by establishing reasonable and attainable targets that are clearly communicated
to the contractor. A cost-plus-award-fee contract places the burden of risk on the
Government and, consequently, increases the amount of resources and time necessary to
provide sufficient contract oversight and surveillance.

WRM Contract Performance Requirements
The WRM contract was awarded to DynCorp to manage prepositioned war reserve
materiel in support of combat forces deployed to Southwest Asia. Specifically, the WRM
contract gave DynCorp responsibility for
               asset receipt, accountability, serviceability, storage, security, periodic
               inspection and test, maintenance, repair, outload, and reconstitution of
               prepositioned       WRM       in    the     USCENTAF          Area      of
               Responsibility . . . [DynCorp] will be requested to provide support for
               scheduled exercises/events by assisting in the deployment of
               assets/systems from storage sites, setting-up camp at the in-use location
               and assisting in camp tear-down and subsequent storage of
               assets/systems.

The contract defined some performance requirements and specified how and when
certain tasks would be accomplished, but the contract also included undefined
performance requirements. For example, the contract included a requirement for
DynCorp to support exercises and events; contract modifications outlining the estimated
requirements and costs associated with exercises or events were to be negotiated when
the specific requirements were identified. Consequently, the work to be performed by
DynCorp on the WRM contract included undefined requirements, clearly necessitating
diligent contract oversight and surveillance.




                                                   5
WRM Program and Contracting Personnel
The WRM program manager was responsible for ensuring the overall management of the
AFCENT WRM program. Additionally, he was responsible for coordinating with the
contracting officer on all WRM contract-related matters and evaluating DynCorp
performance. The WRM contracting officer, located at AFCENT Headquarters, Shaw
Air Force Base, South Carolina, was the only contracting officer with responsibility for
the DynCorp WRM contract for the life of the contract. The contracting officer had two
ACOs in Southwest Asia located near the DynCorp program office.

WRM Program Manager
The WRM program did not have an engaged program manager who acknowledged his
program management responsibilities, and WRM program officials provided materially
conflicting information related to program management responsibilities. The WRM
program manager’s personnel documents and performance appraisals indicated he was
responsible for the DynCorp contract from FY 2000 through FY 2008; the performance
appraisals document his WRM program management responsibilities and
accomplishments.5 In addition, the program manager signed the contracting officer’s
performance appraisals as the first line supervisor for 4 years of the 8-year contract.
However, the WRM program manager stated that he was not responsible for the WRM
program or the DynCorp WRM contract from September 2000 through July 2007.6
Specifically, the WRM program manager stated that in September 2000 the AFCENT
Director of Logistics7 informed him that he no longer had program manager
responsibilities and that his only responsibilities were as the AFCENT Logistics financial
manager.

The AFCENT Director of Logistics and Deputy Director of Logistics8 stated that the
WRM program manager presented himself as the program manager and then denied that
he had any authority or any responsibility for WRM management. In March 2008, the
AFCENT Deputy Director of Logistics documented the program manager’s lack of
engagement in WRM program management review. The AFCENT Deputy Director of
Logistics also noted that the program manager lacked a rudimentary knowledge of WRM
and could not speak conversantly about the WRM program with program officials and
contractor representatives. Additionally, in April 2008, the AFCENT Director of
Logistics documented his lack of confidence in the program manager’s abilities as a
manager and a leader; however, the Director of Logistics did not remove the program
manager until September 24, 2008, only 6 days before the end of the DynCorp WRM
contract performance period. Consequently, the WRM program was not managed by an
engaged program manager who acknowledged his program management responsibilities
for 8 years.


5
  The WRM program manager’s performance appraisals were acceptable from FY 2000 through FY 2008
and he received performance awards in every rating period.
6
  The WRM contract was awarded in April 2000.
7
  The AFCENT Director of Logistics had overall responsibility for the WRM program.
8
  The AFCENT Director of Logistics took the position in July 2007; the AFCENT Deputy Director of
Logistics took the position in November 2006.

                                                6
WRM Contracting Officer
The WRM contracting officer was not supervised or evaluated in accordance with DOD
policies and procedures for contracting officers. Specifically, the WRM contracting
officer did not have an appropriate chain of command for ensuring unbiased and
independent actions and decisions for most of the WRM contract performance period. In
addition, the contracting officer’s performance appraisals were not prepared by someone
with direct knowledge of the contracting officer’s job performance.

DOD guidance9 states that contracting officers’ evaluations will be performed within
their own career program channels to retain a degree of independence that allows
unbiased advice. DOD Instruction 5000.66, “Operation of the Defense Acquisition,
Technology, and Logistics Workforce Education, Training, and Career Development,”
December 21, 2005, establishes requirements for the evaluation of contracting officers
and requires the heads of the DOD Components to ensure that at least first-level
evaluations of contracting officers are performed within the contracting career chain.
The first-level evaluation must be provided by a contracting official who has direct
knowledge of the individual’s performance and is at least one level above the contracting
officer.

The contracting officer was unsupervised and not evaluated in accordance with DOD
guidance, allowing him to administer the WRM contract without oversight from other
contracting or program officials. The contracting officer stated that he reported to and
was evaluated by the WRM program manager and the AFCENT Director of Contracting
at different times during the 8½ years he administered the DynCorp WRM contract. The
contracting officer stated that when the WRM contract was awarded in April 2000, he
reported to the AFCENT Director of Contracting. The contracting officer stated that
when his rating period ended 1 year later on March 30, 2001, he began reporting to the
WRM program manager. The contracting officer stated that he reported to and was
evaluated by the WRM program manager until April 1, 2005, when he again began
reporting to the AFCENT Director of Contracting. We confirmed that the contracting
officer’s performance appraisals for this period were signed by the WRM program
manager. The contracting officer stated that he reported to and was evaluated by the
Director of Contracting for the next 3½ years. We also confirmed that the contracting
officer’s performance appraisals for this period were signed by the Director of
Contracting in place at the time.

Consequently, the contracting officer reported to the WRM program manager for 4 of the
8½ years of the contract, and the WRM program manager was not a contracting official.
In addition, the WRM program manager stated that he did not have any responsibility for
managing the WRM program, the DynCorp contract, or the contracting officer. The


9
 The Under Secretary of Defense for Acquisition, Technology, and Logistics issued memoranda, dated
June 2, 1993, and November 23, 2004, with the subject line, “Functional Independence of Contracting
Officers.” The Deputy Secretary of Defense issued a memorandum, dated August 27, 2008, with the
subject line, “Reinforcing the Evaluation Requirements of Contracting Officers under DOD Instruction
5000.66,” that established requirements for the evaluation of contracting officers.

                                                   7
contracting officer also reported to the AFCENT Director of Contracting for 4½ years of
the contract. However, the Director of Contracting in place for the last year of the
contract stated he did not have oversight of the WRM contract or the contracting officer
and that the contracting officer did not report to him. Consequently, the Director had no
involvement with the execution or administration of the WRM contract and no direct
knowledge of the contracting officer’s performance.

WRM Administrative Contracting Officers
The contracting officer had two ACOs assigned to the WRM contract in Southwest Asia
and located near the DynCorp program office, but the contracting officer constrained
their responsibility for contract oversight and surveillance. The contracting officer issued
appointment letters to the ACOs, officially delegating responsibilities to the ACOs for
“perform[ing] the functions detailed in the FAR [Federal Acquisition Regulation] as
delegated by the CONUS [Continental United States] contracting officer.” However, the
ACOs stated that the contracting officer restricted their contract administration duties to
supervising the QAEs who performed periodic inspections at the WRM storage sites.
The ACOs stated that the contracting officer did not delegate and they did not execute
any other contract administration duties, to include issuing or administering
modifications to the contract, having visibility over contract funding, or reviewing
DynCorp cost proposals or interim public vouchers. Consequently, the ACOs could not
determine the allowability of costs or disapprove costs. In addition, one of the ACOs did
not have a contracting officer warrant; the ACO stated that he did not have a warrant
because the contracting officer stated the ACO would not perform administration duties
that would require a warrant. The Federal Acquisition Regulation (FAR) requires ACOs
to have a contracting officer warrant; the WRM contracting officer should not have
issued an ACO appointment letter to anyone who did not have a contracting officer
warrant.

The ACOs were located in Southwest Asia and had direct access to DynCorp’s program
office and all of the WRM storage sites. The ACOs were in a position to perform many
contract administration functions because they could physically observe the contract
work performed and monitor contractor performance. However, the contracting officer
did not delegate any contract administration functions detailed in the FAR to the ACOs
nor did the contracting officer perform these functions himself.10 The contracting officer
limited ACO responsibility to supervising QAEs. Consequently, AFCENT officials did
not have contracting officials in Southwest Asia with responsibility and authority for
overall contract oversight and surveillance.


Basic WRM Contract Information and Documentation
WRM program and contracting personnel did not have basic, general information on the
WRM contract and failed to maintain adequate contract files. WRM program and
contracting officials could not provide essential contract documentation required by the


10
     See findings B through H for issues related to functions that the contracting officer failed to perform.

                                                         8
FAR and necessary to justify decisions and document a proper audit trail. More
importantly, missing documentation notwithstanding, the contracting officer frequently
could not sufficiently explain or answer questions on the administration of the WRM
contract. Many of our requests for information and documentation were forwarded by
AFCENT personnel to DynCorp as taskings for DynCorp to provide the information;
DynCorp subsequently charged the contract for the time and resources spent on AFCENT
requests for basic contract-related information.

Information Requested
WRM program and contracting personnel could not provide basic contracting support
documents for contract funding, MMC projects, contracting officer authorizations to
DynCorp for additional work, sales of Government property, quality assurance
surveillance reports, and out-of-scope work. The contract files for most of the
120 modifications were materially incomplete. Although we gave WRM program and
contracting personnel numerous opportunities over more than 11 months to respond to
our requests for information and they provided repeated assurances that they would make
the contract documentation available, the contract files remained materially deficient.

        Contract Funding. The WRM contracting officer could not provide
         documentation to sufficiently support WRM contract funding changes in 75 of the
         120 contract modifications. Specifically, the WRM contracting officer could not
         explain how he determined the amounts obligated to different CLINs and SLINs,
         did not track DynCorp expenditures on the WRM contract, and could not provide
         interim public vouchers submitted by DynCorp during the life of the contract.11
         AFCENT personnel tasked DynCorp to provide the audit team with the interim
         public vouchers and then requested the results of our analysis for their records.
         (finding B)

        MMC Projects. AFCENT personnel could not provide DynCorp acceptance
         certificates for 10 of the 105 MMC projects, valued at $1.5 million, which were
         charged to the WRM contract and, according to AFCENT personnel, completed
         by DynCorp. AFCENT personnel could not provide any of the 105 acceptance
         certificates but obtained some of the acceptance certificates from DynCorp.
         However, the acceptance certificates were signed by DynCorp personnel; the
         DOD Financial Management Regulation (FMR) volume 3, chapter 17 states that
         the acceptance of real property must be documented by a user organization.
         Therefore, AFCENT personnel did not properly document the acceptance of the
         MMC projects as the user organization. In July 2008, we requested a list of all of
         the minor construction projects funded by the WRM contract, including the
         contract modifications associated with each project. The WRM procurement
         analyst did not have the information readily available but provided a spreadsheet
         90 days later that was incomplete, inaccurate, and unreliable. In addition, WRM


11
  The WRM contract was established using CLINs and SLINs to identify services to be acquired under the
contract separately.

                                                  9
       program and contracting personnel were unable to explain the sources for the
       information in the spreadsheet. (findings C and D)

      Contracting Officer Authorizations for Additional Work. WRM contracting
       personnel could not provide contracting officer authorizations for DynCorp to
       begin work on additional requirements that were within the general scope of the
       contract. (finding E)

      Sales of Government Property. WRM contracting personnel could not provide a
       list of all sales of Government property and could not document that the
       Government reviewed and approved the sales. WRM contracting personnel
       tasked DynCorp to provide the number of sales of Government property, the
       Government property sold, the sale dates, the proceeds from the sales, and the
       credits to the WRM contract from the proceeds. WRM contracting personnel
       provided us incomplete documentation that did not adequately demonstrate that
       the Government reviewed assets and approved sales prior to DynCorp conducting
       the sales. In addition, AFCENT officials could not provide any documentation to
       demonstrate that the proceeds from sales of Government property were properly
       credited back to the WRM contract, as required by the FAR. We obtained our
       information directly from DynCorp. (finding F)

      Out-of-Scope Work. WRM contracting personnel could not provide a
       Justification and Approval for Other Than Full and Open Competition or a legal
       determination pertaining to requirements that were executed under the WRM
       contract but that were outside the scope of the original performance work
       statement. Specifically, WRM contracting personnel used the DynCorp WRM
       contract to execute a High Mobility Multipurpose Wheeled Vehicle (HMMWV)
       Refresh Program at Al Udeid Air Base and support Navy munitions located in
       Oman. Neither of these requirements were within the scope of the contract
       performance work statement. (finding G)

      Quality Assurance Surveillance Reports. WRM QAEs could not provide QAE
       surveillance reports for the first 5 years of the contract. (finding H)

Information Provided By DynCorp
The contracting officer tasked DynCorp to provide contract documentation to us that we
requested from AFCENT because AFCENT personnel could not provide the contract
documentation.

Some of the basic contract documentation WRM contracting personnel tasked DynCorp
to provide included:

      contractor interim public vouchers,
      documentation of acceptance of completed construction projects, and
      records of sales of Government property (see finding F).


                                          10
DynCorp charged the WRM contract for the time and resources spent gathering and
submitting the documentation requested by the contracting officer.

Contract Files
In many cases, the WRM contract files were materially inadequate. In addition to the
significant issues addressed above, WRM contracting personnel did not use a consistent
format for dating contract modifications; did not verify mathematical computations
contained in contract modifications; did not date supporting documentation in the
contract file; and did not implement procedures for protecting and retaining electronic
contract documentation after an unusual and questionable number of computer crashes
and information technology problems. Without adequate documentation and sufficient
record retention policies, WRM program and contracting personnel were generally
unable to explain many WRM contract actions, even though the same contracting officer
was in charge of the contract for the entire performance period.


Monitoring and Tracking Costs
The contracting officer did not effectively monitor or track $161.1 million of the
$621 million obligated to the contract and frequently failed to document key decisions.

WRM program and contracting personnel did not monitor and track funding changes,
allowed DynCorp personnel to propose and draft contract modifications, and relied on
DynCorp to track contract funding. The contracting officer routinely rearranged funds on
the contract at the request of DynCorp. For example, in FY 2002, the contracting officer
requested a draft modification bid schedule from DynCorp and made the following
statement in an e-mail:

              Go ahead and send me a “draft P00034” bid schedule and I will get it
              [the modification] done. One question, I hope you can move money in
              CLIN 0302 to cover as we don’t need to get any more FY 02 money.
              We have so far secured additional $29M for FY 03 so don’t worry
              about money at this point, keep spending, just have to put in right
              place.

The contracting officer stated that he realigned funds between CLINs and SLINs in many
modifications for billing purposes. However, the contracting officer could not explain
whether funds were moved to prevent cost overruns or because additional requirements
arose, nor could the contracting officer explain why funds were no longer needed on the
SLIN from which the contracting officer removed funds. The WRM contracting officer
requested and obtained funds without reviewing DynCorp cost estimates, moved funds
for billing purposes after DynCorp spent the funds, and encouraged DynCorp to keep
spending; consequently, the WRM contracting officer provided no incentive for DynCorp
to control costs. Further, the contracting officer relied on DynCorp to track how much
the Government spent for specific requirements and was unable to independently account
for the funds spent on the WRM contract.



                                              11
AFCENT officials did not have a method for tracking miscellaneous tasks given to
DynCorp by the contracting officer. The contracting officer routinely issued
Procurement Contracting Officer (PCO) taskers12 to DynCorp, through e-mail, to task
DynCorp with requirements. However, the costs charged by DynCorp to execute these
taskers could not be traced back to the contract. Furthermore, AFCENT contracting and
program office personnel could not provide the majority of the PCO taskers issued to
DynCorp because contracting and program office personnel claimed that their computers
had crashed. Consequently, we could not review the PCO taskers to determine whether
the work requirements documented in the PCO taskers were within the general scope of
the WRM contract.


Cost-Plus-a-Percentage-of-Cost Contract
The WRM contracting officer inappropriately administered portions of the WRM
contract as a prohibited cost-plus-a-percentage-of-cost system of contracting. A contract
is considered cost-plus-a-percentage-of-cost if it meets the following four-point test:

        payment is on a predetermined percentage rate,
        the percentage rate is applied to actual performance costs,
        the contractor’s entitlement is uncertain at the time of award, and
        the contractor’s entitlement increases commensurately with increased
         performance costs.

A cost-plus-a-percentage-of-cost contract can be harmful to the Government because it
does not provide an incentive for the contractor to control costs. Furthermore,
contractors have an incentive to increase costs because a higher cost earns a higher fee
for the contractor. According to section 2306(a), title 10, United States Code
(10 U.S.C. 2306 [a]), a cost-plus-a-percentage-of-cost system of contracting may not be
used. FAR Part 16, “Types of Contracts,” implements the statutory provision.

Operations Enduring Freedom and Iraqi Freedom resulted in a major increase in the
workload on the WRM contract with DynCorp. The WRM contracting officer
acknowledged that AFCENT did not use the WRM storage contract for its intended
purposes once Operation Enduring Freedom began in 2002. The contracting officer
executed undefinitized contract actions to mobilize the contractor to begin immediately
performing additional work within the general scope of the contract when AFCENT did
not have time to negotiate a price. The contracting officer issued contract modifications
for undefinitized requirements at not-to-exceed prices but did not establish DynCorp’s
award fee pertaining to the requirement. The contracting officer often definitized
requirements after actual costs were known, in some instances years after awarding the
work to DynCorp. Once the contracting officer definitized the requirement and agreed to
a price with DynCorp, the contracting officer determined DynCorp’s award fee for the


12
  WRM contracting officials used the term “PCO taskers” to refer to any requirement communicated by
the contracting officer to DynCorp regardless of the method of communication.

                                                 12
work. This resulted in the contracting officer administering the contract as a prohibited
cost-plus-a-percentage-of-cost system of contracting for many WRM contract actions
(See finding E).

In one example of such a contract action, the contracting officer obligated funds on
August 12, 2002, at a not-to-exceed price for DynCorp to reconstitute all non-
mission-capable vehicles in Qatar. The contracting officer did not definitize this
requirement or agree to a price until September 25, 2007. The negotiated price of the
requirement was based on actual costs. The WRM contracting officer authorized a fee of
6 percent of the actual costs, which included a 2 percent base fee and 4 percent award fee,
the same as established in the basic contract. The contracting officer administered this
contract action as a prohibited cost-plus-a-percentage-of-cost system of contracting by
not establishing a fee when he awarded the work to DynCorp, later paying an award fee
based on the predetermined percentage rate established in the basic contract, and
applying the percentage rate to the actual performance costs.

FAR Part 16 states that in the course of a single, long-term contract, changing
circumstances may make a different contract type appropriate in later periods than that
used at the beginning of the contract. The contracting officer should not have exercised
options on the WRM contract with DynCorp once he realized that the major increase in
the WRM workload associated with Operation Enduring Freedom would require that it
use the contract for purposes other than those intended. In addition, major increases in
requirements typically warrant competition of the new requirements. Consequently, the
contract should have been allowed to expire in the FY 2002 through FY 2003 time frame
and the requirements re-competed.


Requirements Definition
The WRM contracting officer executed 75 of the 120 contract modifications that did not
completely define or specify the work to be accomplished by DynCorp or provide
sufficient information to protect DOD interests. The contracting officer stated that
Operations Enduring Freedom and Iraqi Freedom resulted in a major increase in the
WRM workload requirement that was not anticipated when the Air Combat Command
initially awarded the WRM contract in April 2000. The decision to use the DynCorp
WRM contract to execute this increase in requirements meant that AFCENT contracting
officials had to communicate the specific requirements of the increased workload to
DynCorp to properly execute any given task.

The WRM basic contract and the performance work statement did not address a process
for communicating work requirements to DynCorp that were not specifically defined in
the WRM contract. The WRM contract stated that modifications outlining the estimated
requirements and costs associated with future exercises or events were to be negotiated
when the specific requirements were identified. Consequently, the contracting officer
used PCO taskers as part of administrative procedures to document and track
communication in the WRM contract.


                                            13
The contracting officer directed the contractor via e-mail, phone call, or PCO tasker to
execute the work associated with the significant increase in identified requirements, but
the requirements were often general, lacking in sufficient detail to be measurable, and
often not documented by WRM program and contracting personnel. Additionally, there
was no way to relate work requirements communicated in this manner to contract
modifications or to any costs associated with the requirements. AFCENT personnel were
unable to completely define and, consequently, accurately account for services provided
by DynCorp. In addition, the WRM contracting officer should not have executed
undefinitized contract actions when modifying the contract. The Defense Federal
Acquisition Regulation Supplement (DFARS) Subpart 217.74, “Undefinitized Contract
Actions,” states that undefinitized contract actions do not include contract modifications
that are within the scope and under the terms of the contract. The WRM contracting
officer established 182 SLINs as undefinitized contract actions that required DynCorp to
perform additional work that was within the scope of the performance work statement
and therefore the contracting officer should not have used undefinitized contract actions.
Instead, reasonable estimated costs should have been determined before or shortly after
the work began.

The WRM contracting officer recognized that the requirements had outgrown the WRM
storage contract in 2002; consequently, he should not have exercised the additional
option years on the WRM contract. Instead, the contracting officer should have
considered terminating the DynCorp WRM contract, re-competing the requirements, and
awarding an indefinite-delivery, indefinite-quantity contract type to ensure that
requirements were properly defined and communicated. An indefinite-delivery contract
may be used to acquire supplies and services when the exact time and exact quantities of
future deliveries are not known when the contract is awarded. Indefinite-delivery,
indefinite-quantity contracts permit flexibility in both quantities and delivery scheduling
and ordering supplies or services after requirements materialize. An indefinite-delivery,
indefinite-quantity contract would have given the WRM contracting officer flexibility for
determining and specifying requirements as they evolved. By issuing task orders for
specific requirements, WRM contracting personnel could have accurately tracked
services performed by DynCorp and accounted for the costs associated with those
services.


Conclusion
The DynCorp WRM contract warranted diligent and continuous oversight and
surveillance because of the:

      undefined performance requirements included in the contract performance work
       statement,
      risks associated with executing a cost-reimbursement type of contract, and
      challenges associated with managing a contract in Southwest Asia from the
       Continental United States.



                                            14
Furthermore, WRM management in the AFCENT area of responsibility became critical
within 2 years of contract award as a result of Operation Enduring Freedom.

WRM program and contracting personnel could not fully or accurately account for
$161.1 million of the $621 million obligated to the WRM contract and did not adequately
track DynCorp-rendered services. AFCENT officials did not implement sufficient
internal control mechanisms to ensure that the WRM contract met Federal and DOD
requirements for contract management and administration. When contracting for
services, agency officials must ensure that a sufficient number of trained and experienced
personnel are available within the agency to manage and oversee the contract
administration function. The contracting officer did not administer the WRM contract in
the best interest of DOD. The cumulative actions or inaction of the WRM program and
contracting personnel and the lack of internal controls created an environment with a high
risk for potential fraudulent activity; inadequate documentation resulted in either no audit
trail or one so complex that accountability was questionable.


Recommendations, Management Comments, and Our
Response
A.1. We recommend the Commander, U.S. Air Forces Central:

       a. Perform a thorough review of the U.S Air Forces Central contracting
command structure to determine whether contracting concerns identified in this
report exist for other contracting efforts administered by U.S. Air Forces Central
and take appropriate corrective action.

      b. Ensure a qualified and capable contracting officer is assigned to
appropriately close out the war reserve materiel contract (F44650-00-C0006).

AFCENT Comments
The Chief of Staff for the Commander, AFCENT, agreed with the recommendation,
stating that the Chief of Staff will appoint a multi-functional team to complete a review
of the command and control relationships; contract and contractor oversight; and policy
compliance for all contracts that are administered by AFCENT headquarters or directly
support AFCENT headquarters. Additionally, the Chief of Staff stated that AFCENT
will either request support from the Defense Contract Management Agency for contract
closeout or request hiring authority and assistance from the Air Combat Command to
obtain contracting officer support to perform contract closeout by March 2011.

Our Response
The Chief of Staff’s comments were responsive and met the intent of the
recommendation. No additional comments are required.




                                            15
A.2. We recommend the Director, Acquisition Management and Integration Center,
Air Combat Command, determine whether:

      a. War reserve materiel program personnel are qualified and capable of
managing the war reserve materiel program in accordance with DOD and Air Force
guidance.

      b. War reserve materiel contracting personnel are qualified and capable of
administering the new war reserve materiel contract (FA4890-08-C-0004), in
accordance with Federal Acquisition Regulation Subpart 1.6, “Career Development,
Contracting Authority, and Responsibilities,” and DOD Instruction 5000.66,
“Operation of the Defense Acquisition, Technology, and Logistics Workforce
Education, Training, and Career Development.”

Acquisition Management and Integration Center Comments
The Director of Installations and Mission Support, Air Combat Command, agreed with
the recommendation, stating that the program manager assigned to the war reserve
materiel program is qualified to manage the war reserve materiel contract in accordance
with Air Force Instruction 63-124, “Performance Based Service Acquisition,” August 1,
2005, and the contracting officers assigned to the program were properly appointed under
the authority of FAR Subpart 1.6. Regarding Recommendation A.2.a, the Director of
Installations and Mission Support, Air Combat Command, noted that the war reserve
materiel program requirements are the responsibility of AFCENT, not the Acquisition
Management and Integration Center, Air Combat Command, and advised us to also direct
recommendation A.2.a to the Commander, AFCENT.

Our Response
Comments from the Director of Installations and Mission Support, Air Combat
Command, were responsive and met the intent of the recommendation. The war reserve
materiel program manager and contracting officer responsible for contract F44650-00-
C0006 that ended September 30, 2008 have been removed. No additional comments are
required. An additional recommendation was not made to the Commander, AFCENT,
because this recommendation pertains only to WRM program management, not WRM
requirements development.

A.3. We recommend the Air Force Program Executive Officer for Combat and
Mission Support evaluate the annual execution review to ensure the war reserve
materiel program manager or procuring contracting officer performs a thorough
review of war reserve materiel contract (FA4890-08-C-0004) costs, schedules, and
performance, as required by Air Force Instruction 63-101, “Acquisition and
Sustainment Life Cycle Management.”

Air Force Program Executive Officer for Combat and Mission
Support Comments
The Air Force Deputy Assistant Secretary of Financial Operations responded for the Air
Force Program Executive Officer for Combat and Mission Support and agreed with the
                                          16
recommendation, stating that a review of the contract status, program issues, schedules,
finances, performance, and metrics was completed for contract FA4890-08-C-0004 on
July 28, 2009.

Our Response
Comments from the Air Force Deputy Assistant Secretary of Financial Operations for the
Air Force Program Executive Officer for Combat and Mission Support were responsive
and met the intent of the recommendation. We request that the Air Force Program
Executive Officer for Combat and Mission Support provide a copy of the review
completed on July 28, 2009. No additional comments are required.

A.4. We recommend the Regional Director, Central Region, Defense Contract Audit
Agency:

       a. Conduct a cost audit of the old war reserve materiel contract
(F44650-00-C0006) that ended on September 30, 2008, with a focus on award fee,
minor military construction, exercises and events, proceeds from the sale of
Government property, and port handling inland transportation contract line items
to identify unallowable costs.

      b. Perform additional testing on DynCorp International incurred cost
submissions from FY 2000 through FY 2004.

DCAA Comments
The Regional Director, Central Region, DCAA, agreed with the recommendation, stating
that DCAA will audit direct costs incurred under contract F44650-00-C0006 and
anticipated testing to be completed by September 30, 2010. The Regional Director stated
that the audit will include a review of award fee base calculations, costs incurred for
MMC, costs incurred during exercises and events, proceeds from the sale of Government
property, and port handling inland transportation costs. The Regional Director indicated
that the incurred cost audit may be adversely impacted by the lack of defined
requirements in the contract performance work statement. The Regional Director also
stated that DCAA will perform additional testing of incurred costs for FY 2000 through
FY 2004.

Our Response
Comments from the Regional Director, Central Region, DCAA, were responsive and met
the intent of the recommendation. No additional comments are required.

We are not making additional recommendations for finding A because the war
reserve materiel program manager and contracting officer, responsible for the war
reserve materiel contract (F44650-00-C0006) that ended September 30, 2008, have
been removed and specific recommendations related to the issues discussed are in
findings B through H.



                                           17
Finding B. Contract Funding, Expenditures,
and Payments
The WRM contracting officer could not support $161.1 million obligated to the WRM
contract. Additionally, DOD officials did not adequately account for DynCorp
expenditures and payments on the WRM contract. Specifically,

      the WRM contracting officer did not track DynCorp’s expenditures on the WRM
       contract, and
      WRM contracting personnel and DCAA personnel allowed inaccurate interim
       public vouchers to be submitted directly to and paid by the Defense Finance and
       Accounting Service.

These conditions occurred because:

      the WRM contracting officer did not have written, binding agreements with
       DynCorp that defined specific requirements for services provided,
      the WRM contracting officer did not require DynCorp to comply with billing
       instructions defined in the basic contract, and
      DCAA personnel failed to perform required surveillance of DynCorp’s billing
       system and annual testing of paid interim public vouchers.

As a result, AFCENT officials may have overpaid for services that DynCorp performed,
paid for services that DynCorp did not perform, paid interim public vouchers that
DynCorp did not prepare and submit in accordance with the contract requirements, and
used inappropriate funds. In addition, the contracting officer may have inaccurately
calculated base, award, and construction fees.


Criteria
The United States Code provides guidance on documentary evidence needed for the
Government to obligate funds. The FAR provides guidance on performing contract
administration and submitting interim payments. The DOD FMR provides guidance for
reviewing obligations at year-end. The DFARS and the DCAA Contract Audit Manual
provide guidance on authorizing contractors to direct bill.

United States Code
Section 1501, title 31, United States Code (31 U.S.C. 1501), “Documentary Evidence
Requirement for Government Obligations,” requires that a Government obligation be
supported by a written, binding agreement between the Government and another
party that specifies goods to be delivered or services to be provided and is executed
before the end of the appropriation or fund period of availability.


                                           18
FAR Subpart 4.8: “Government Contract Files”
FAR Subpart 4.8 states that contract administration files should document actions
reflecting the basis for and the performance of contract administration responsibilities to
include official copies of supporting documentation.

FAR 32.905: “Payment Documentation and Process”
FAR 32.905 states that a public voucher payment will be based on receipt of a proper
public voucher and satisfactory contract performance. An interim payment under a
cost-reimbursement service contract constitutes a proper voucher when it includes all the
information required by the contract.

DOD FMR Volume 3, Chapter 15: “Receipt and Distribution of
Budgetary Resources at the Execution-Level”
Volume 3, chapter 15 of the DOD FMR states that, at year-end, installations must ensure
that obligations are accurate based on the most current information available.

DFARS 242.8: “Disallowance of Costs”
DFARS 242.8 states that the contract auditor, acting as the representative of the
contracting officer, is allowed to authorize a contractor to submit interim public vouchers
directly to Government disbursing (paying) offices if the contractor maintains an
adequate billing system.

DCAA Contract Audit Manual, Volume 1, Section 6-1007: “Direct
Submission of Interim Public Vouchers to Disbursing Offices
(Direct Billing)”
DCAA Contract Audit Manual, volume 1, section 6-1007 states that a contractor’s
continued participation in the direct billing program will be based on the results
of DCAA ongoing surveillances of the contractor’s billing systems. DCAA must
perform annual testing of paid vouchers to determine whether the contractor’s internal
controls can be relied on for the preparation of public vouchers. The sampling plan used
to test paid vouchers should be documented and updated annually.


Contract Funding
The WRM contracting officer executed 120 contract modifications, many of which made
funding changes on the contract; 75 of the contract modifications did not completely
define or specify the requirements for the services DynCorp was tasked to perform. The
WRM contracting officer obligated a total of $594.1 million to the WRM contract from
FY 2000 through FY 200813; only $433 million was supported by Government
negotiations that resulted in written, binding agreements that defined the specific


13
  We excluded base, award, and construction fees from the total obligated amount because these are based
on the estimated costs obligated to the contract, and based on our analysis of funds obligated, these fees
may have been miscalculated.

                                                    19
requirements for the services to be provided by DynCorp.14 Consequently, the WRM
contracting officer could not support $161.1 million obligated to the WRM contract.

For example, on July 30, 2003, the WRM contracting officer issued modification P00041
that established and funded an FY 2003 SLIN for $21.4 million for asset collection and
reconstitution support; however, the contract file contained no support for why that SLIN
was established and had no written, binding agreement between AFCENT and DynCorp
that defined specific requirements for asset collection and reconstitution. On
August 14, 2003, the WRM contracting officer issued modification P00042 that
decreased the value of the FY 2003 SLIN to $20.4 million; however, the contract file
contained no support for why the funded amount was decreased. On September 28,
2003, the WRM contracting officer issued modification P00045, the last modification
that changed the FY 2003 SLIN, that increased the value of the FY 2003 SLIN to
$23 million; however, the contract file contained no support for why the contracting
officer obligated additional funds to the FY 2003 SLIN.

Additionally, on March 15, 2004, the WRM contracting officer issued modification
P00050 that established and funded an FY 2004 SLIN for $12.7 million for Operation
Iraqi Freedom support; however, the contract file contained no support for why that SLIN
was established and had no written, binding agreement between AFCENT and DynCorp
that defined specific requirements for Operation Iraqi Freedom support. On
March 29, 2004, the WRM contracting officer issued modification P00051 that decreased
the value of the FY 2004 SLIN to $10.3 million; however, the contract file contained no
support for why the funded amount was decreased. On December 1, 2004, the WRM
contracting officer issued modification P00061, the last modification that changed the
FY 2004 SLIN, that increased the value of the FY 2004 SLIN to $13.4 million; however,
the contract file contained no support for why the contracting officer obligated additional
funds to the FY 2004 SLIN.

The WRM contracting officer could not support $161.1 million obligated to the WRM
contract. The WRM contracting officer could not explain why he obligated:

        an additional $3.7 million in estimated costs during the 2-month phase-in period
         without a written, binding agreement that defined the specific requirements for
         services to be provided by DynCorp;
        $0.7 million less than the estimated costs negotiated during the 3-month base
         year;
        an additional $2.9 million in estimated costs without a written, binding agreement
         that defined the specific requirements for services to be provided by DynCorp in
         option year one;



14
  Government negotiations include estimated costs negotiated on the basic contract and subsequent price
negotiation memoranda. The estimated costs established in the basic contract were negotiated during the
pre-award process. Additionally, the price negotiation memoranda represented written, binding agreements
that specified the services to be provided by DynCorp.

                                                  20
    an additional $13.4 million in estimated costs without a written, binding
     agreement that defined the specific requirements for services to be provided by
     DynCorp in option year two;
    an additional $66.8 million in estimated costs without a written, binding
     agreement that defined the specific requirements for services to be provided by
     DynCorp in option year three;
    an additional $28.3 million in estimated costs without a written, binding
     agreement that defined the specific requirements for services to be provided by
     DynCorp in option year four;
    an additional $21.9 million in estimated costs without a written, binding
     agreement that defined the specific requirements for services to be provided by
     DynCorp in option year five;
    an additional $15.4 million in estimated costs without a written, binding
     agreement that defined the specific requirements for services to be provided by
     DynCorp in option year six;
    an additional $6.2 million in estimated costs without a written, binding agreement
     that defined the specific requirements for services to be provided by DynCorp in
     extension period one; and
    an additional $3.2 million in estimated costs without a written, binding agreement
     that defined the specific requirements for services to be provided by DynCorp in
     extension period two.


                             Table 1. Contract Funding
                                       (in millions)


    Contract               Total           Estimated Costs      Total Estimated
    Period                 Estimated       Supported by         Costs Obligated
                           Costs           Government           Without a
                           Obligated       Negotiations         Written, Binding
                                                                Agreement
    Phase-in period               $7.0                   $3.3                $3.7
    Base year                      5.1                    5.8               (0.7)
    Option year one               32.6                   29.7                 2.9
    Option year two               75.4                   62.0                13.4
    Option year three            123.5                   56.7                66.8
    Option year four              81.2                   52.9                28.3
    Option year five              80.1                   58.2                21.9
    Option year six               53.2                   37.8                15.4
    Extension period one          71.0                   64.8                 6.2
    Extension period two          65.0                   61.8                 3.2
    Total                       $594.1                  $433              $161.1



                                           21
In accordance with the requirements in the WRM contract, DynCorp was entitled to a
2 percent base fee, 4 percent award fee, and 5 percent construction fee, based on
estimated costs. DynCorp should not have received any additional fees based on actual
costs. The WRM contracting officer may have inaccurately calculated base, award, and
construction fees because he funded $161.1 million on the WRM contract without a
written, binding agreement that defined specific requirements for DynCorp services.
However, we could not determine how the WRM contracting officer calculated base,
award, and construction fees. For additional discussions on award fee, see finding E. For
additional discussion on construction fee, see finding C.


Expenditures and Payments
Government officials did not adequately account for DynCorp expenditures and
payments on the WRM contract.

DynCorp Expenditures
Government personnel did not track DynCorp’s expenditures on the WRM contract. The
WRM contracting officer allowed DynCorp to bill for more than the total amount
obligated for specific CLINs and SLINs, did not identify unnecessary and excess funds,
and was unable to provide all the interim public vouchers that DynCorp had submitted for
the life of the contract.

The WRM contracting officer allowed DynCorp to bill for more than the total dollar
amount obligated for specific CLINs and SLINs. The Air Combat Command established
the WRM basic contract that required that DynCorp bill using a CLIN and SLIN
structure. This made sense because costs were estimated and funds were obligated for
work using that structure. However, the Defense Finance and Accounting Service did not
disperse funds using the CLIN and SLIN structure and instead disbursed funds against
lines of accounting. DynCorp interim public vouchers were paid by the Defense Finance
and Accounting Service as long as there were sufficient funds available in the associated
line of accounting. However, the funds may not have been available in the CLIN or
SLIN that the work was performed under. For example, DynCorp billed and was paid
257 percent of an FY 2004 SLIN funded for operation and maintenance support at
Al Udeid, Qatar. The WRM contracting officer obligated $3.3 million against the
FY 2004 SLIN, but DynCorp billed $8.5 million against the FY 2004 SLIN and was paid
by the Defense Finance and Accounting Service. Therefore, DynCorp billed and was
paid an additional $5.2 million that was not obligated against the FY 2004 SLIN.
Consequently, the Government may have paid for services for which funds had not been
estimated and properly obligated, as required by the FAR.

The WRM contracting officer did not monitor DynCorp expenditures in order to identify
unnecessary and excess funds. Specifically, the WRM contracting officer allowed
$21.3 million in Operations and Maintenance funds from FY 2000 through FY 2003 to be
cancelled. Funds are cancelled after 5 years and are no longer available for adjustments
or payment obligations. Since the WRM contracting officer allowed this to happen, these
funds were not needed and were excess. The WRM contracting officer should have de-

                                           22
obligated the $21.3 million in Operations and Maintenance funds prior to them being
cancelled so that the funds could have been used for other purposes.

The WRM contracting officer did not review DynCorp interim public vouchers before or
after they were paid by the Defense Finance and Accounting Service. Additionally, the
WRM contracting officer did not maintain copies of DynCorp’s interim public vouchers
and instead tasked DynCorp to respond to our requests for copies of interim public
vouchers. Consequently, AFCENT could not independently account for expenditures to
DynCorp pertaining to any individual requirement and may have paid for services
DynCorp did not perform or overpaid for services that DynCorp performed.

DynCorp Payments
WRM contracting personnel and DCAA personnel allowed inaccurate interim public
vouchers to be submitted directly to and paid by the Defense Finance and Accounting
Service.

The WRM contracting officer did not require DynCorp to comply with billing
instructions established in the WRM basic contract when submitting interim public
vouchers for payment. DCAA authorized DynCorp to directly submit interim public
vouchers to the Defense Finance and Accounting Service for payment; however, DCAA
did not perform ongoing surveillance of the DynCorp billing system or perform annual
testing of paid interim public vouchers as required by DFARS and the DCAA Contract
Audit Manual. Additionally, prior to FY 2003, AFCENT personnel did not ensure that
DynCorp services were paid using appropriate year funds.

Billing Instructions
The WRM contracting officer did not require DynCorp to comply with billing
instructions established in the WRM basic contract. Specifically, interim public vouchers
submitted by DynCorp did not identify the period of performance on the public voucher.
DynCorp personnel stated that the period of performance listed on a public voucher
covers an option year of the WRM contract. However, on several interim public
vouchers the period of performance covered several years or less than a year, which does
not equate to a WRM contract option year.15 Additionally, DynCorp interim public
vouchers did not detail the quantity of services performed and did not include a written
certification that the services were performed during the public voucher period as
required by the WRM basic contract. As a result, the Government may have paid for
services DynCorp did not perform.

Direct Billing
DCAA authorized DynCorp to directly submit interim public vouchers to the Defense
Financial Accounting Service for payment in FY 2000. DFARS allows the contract
auditor to authorize contractors that maintain adequate billing systems to submit interim
public vouchers directly to Government disbursing offices. A contractor’s continued


15
     A WRM contract option year was equivalent to a Government fiscal year.

                                                    23
participation in the direct billing program should be based on the results of DCAA
ongoing surveillance of contractors’ billing systems. The DCAA Contract Audit Manual
requires DCAA to perform annual testing of paid interim public vouchers to ascertain
whether continued reliance can be placed on contractors’ internal controls for the
preparation of interim public vouchers.

DCAA did not perform ongoing surveillance of the DynCorp billing system for the life of
the WRM contract. DCAA had completed three billing system audit reports since the
WRM contract began in FY 2000. The first report, completed in FY 2003, found that the
DynCorp billing system internal controls were adequate based on testing performed from
January 2001 to July 2003; however, DCAA’s audit disclosed six areas of improvement
for the system. The second report, completed in FY 2004, found that the DynCorp billing
system internal controls were adequate based on testing performed from March 2003 to
October 2003, even though DCAA’s audit disclosed two areas of improvement for the
system.

DCAA issued a memorandum rescinding the FY 2004 billing system report on
October 2, 2008. The memorandum stated that DCAA rescinded the FY 2004 billing
system report because DCAA’s current guidance for system internal controls audits
incorporates new generally accepted government auditing standards definitions related to
reporting internal control deficiencies as material weaknesses. DCAA determined that
the internal control deficiencies identified in the FY 2004 billing system report would
now be considered deficiencies significant enough to cause the billing system to be
assessed as either “inadequate in part” or “inadequate.” As a result of the October 2008
memorandum, DynCorp should not have been authorized to continue participation in the
direct billing program.

DCAA conducted audits of DynCorp incurred costs to determine the allowability,
allocability, and reasonableness of the costs charged to a contract. During the FY 2005
through FY 2007 DCAA audit of incurred cost claims, DCAA determined that at least
$2.5 million billed to the WRM contract was not reasonable. The DCAA audit of
incurred cost claims was ongoing, as of June 2009. DCAA personnel stated that they
recognized the severity of the WRM contract cost issues, and they have increased the
scope of the ongoing audit and reopened audits completed for FY 2000 through FY 2004
to perform additional testing. As a result, DCAA issued a Form 1, “Notice of Contract
Cost Suspended and/or Disapproved” on January 30, 2009, to suspend the $2.5 million
subcontract payment. DCAA stated that, consequently, DynCorp would not be allowed
to direct bill any additional costs associated with the WRM contract.

DCAA issued the third DynCorp billing system audit report on April 23, 2009, after the
WRM contract ended, and determined that DynCorp billing system internal controls were
inadequate based on testing performed from December 2008 to March 2009. DCAA
disclosed five significant deficiencies that were considered to be material weaknesses in
the DynCorp billing system that resulted in inaccurate Government billings.




                                           24
Furthermore, DCAA did not perform annual testing of paid vouchers for the WRM
contract during the time DynCorp was allowed to directly bill the Government. DCAA
had no sampling plan for testing public vouchers and only tested one public voucher in
FY 2008 for the WRM contract. The DCAA Contract Audit Manual states that DCAA
should perform annual testing of paid public vouchers to determine whether continued
reliance can be placed on the contractor’s internal controls when preparing public
vouchers. DCAA is required to verify that DynCorp’s billings are in compliance with
contract terms and that the total amount billed does not exceed any funding limitations.
The sampling plan used to test paid public vouchers must be documented and updated
annually. DCAA also has the option of performing the annual testing of the paid public
vouchers as part of another audit; however, if this occurs, the DCAA auditor must
generate a memorandum for record that specifies the audit assignment that documents the
decision to allow DynCorp to continue participating in the direct billing program. DCAA
personnel stated that they only tested one public voucher in FY 2008 for the WRM
contract because DCAA was concentrating its resources on other audit efforts.

WRM Contracting Personnel Review of Public Vouchers
Prior to FY 2003, AFCENT personnel did not ensure that DynCorp services were paid
using appropriate year funds. For example, during our review of DynCorp interim public
vouchers in 2008, AFCENT financial management personnel noticed that DynCorp billed
for services performed in FY 2000 and FY 2001 but was paid by the Defense Finance and
Accounting Service with FY 2000 funds; a portion of the public voucher should have
been paid with FY 2001 funds. AFCENT personnel should have reported the mistake to
the Defense Finance and Accounting Service, and the Defense Finance and Accounting
Service should have credited the FY 2000 funds that were used to pay for services
performed in FY 2001; however, FY 2000 and FY 2001 funds had been cancelled by the
time the mistake was identified in July 2008, and, as a result, funds were no longer
available to make the correction. AFCENT financial management personnel stated that
in FY 2003 they started comparing DynCorp interim public vouchers to the Defense
Finance and Accounting Service payment vouchers to ensure that DynCorp interim
public vouchers were paid using appropriate funds. AFCENT financial management
personnel stated that, since FY 2003, they have verified that the fund cite balance of the
unexpended, committed, and paid amounts reconciled with the fund cites established on
the WRM contract and DynCorp interim public vouchers.


Conclusion
AFCENT contracting personnel did not maintain contract files that detailed the basis for
funding changes. We requested all contract modifications and supporting documentation
for the WRM contract before our first site visit to AFCENT and over the next 9 months;
however, they were unable to provide documentation to sufficiently support the WRM
contract modifications as required by the FAR.

WRM contracting personnel had no internal controls in place to ensure that estimated
costs were properly obligated on the WRM contract. The WRM contracting officer
issued modifications that did not sufficiently define requirements for $161.1 million

                                           25
obligated on the WRM contract from FY 2000 through FY 2008. For example, the
contracting officer de-obligated funds from an FY 2005 SLIN in FY 2005 without
support for the de-obligation. In FY 2007 the contracting officer issued a WRM contract
modification that stated that the Defense Finance and Accounting Service had not de-
obligated funds for the FY 2005 SLIN from its system. The contracting officer reversed
his FY 2005 de-obligation and authorized DynCorp to have full use of the total funds
available prior to the de-obligation. The WRM contracting officer executed similar
contract actions during the life of the WRM contract that may have caused the
Government to overpay for services DynCorp performed or paid for services that
DynCorp did not perform. Contracting officials should perform a thorough analysis of
contract actions and DynCorp interim public vouchers to determine whether services that
were performed were properly paid and that the Government did not pay for services that
were not performed.

The WRM contracting officer should have tracked DynCorp expenditures on the WRM
contract. Instead, AFCENT officials allowed the Defense Finance and Accounting
Service to pay interim public vouchers that were not submitted in accordance with the
contract requirements, used inappropriate funds when paying for DynCorp services, and
did not de-obligate unnecessary and excess funds prior to the funds being cancelled.
Contracting officials should maintain and review all of DynCorp interim public vouchers
to ensure that DynCorp submits interim public vouchers as specified in the contract, and
that the interim public vouchers are paid using the appropriate funds. DCAA should
conduct ongoing reviews of DynCorp internal controls and determine whether DynCorp
internal controls are adequate.


Recommendations, Management Comments, and Our
Response
B.1. We recommend the Director, Acquisition Management and Integration Center,
Air Combat Command:

      a. Require that a Government obligation be supported by a written, binding
agreement between the contracting officer and DynCorp International, in
accordance with section 1501, title 31, United States Code.

       b. Review obligations at year’s end to determine whether unnecessary and
excess funds were obligated to the new war reserve materiel contract
(FA4890-08-C-0004).

       c. Ensure the contracting officer requires DynCorp International to comply
with billing instructions defined in the new war reserve materiel contract
(FA4890-08-C-0004).

       d. Ensure the contracting officer conducts contract reconciliation between
the new war reserve materiel contract (FA4890-08-C-0004), paying office records,


                                           26
and accounting records as required by DOD Financial Management Regulation,
volume 10, chapter 20, “Contract Reconciliation.”

Acquisition Management and Integration Center Comments
The Director of Installation and Mission Support, Air Combat Command, agreed with the
recommendation, stating that all obligations on contract FA4890-08-C-0004 will be
executed bilaterally and within the parameters of the appropriations and purposes cited,
unless authorized to be executed unilaterally. The Director indicated that Acquisition
Management and Integration Center personnel will review extensive contract financial
records on a weekly basis to ensure obligations, expenditures, and payments are applied
correctly and that reviews will be done after year’s end to determine if excess funds
remain on the contract. Additionally, the Director stated that Acquisition Management
and Integration Center personnel, the AFCENT logistics financial manager, and
contractor financial managers meet quarterly to discuss the status of obligations,
expenditures, and payments; if the contractor does not comply with billing instructions,
the contracting officer will issue a letter of concern.

Our Response
Comments from the Director of Installation and Mission Support, Air Combat Command,
were responsive and met the intent of this recommendation. No additional comments are
required.

B.2. We recommend the Regional Director, Central Region, Defense Contract Audit
Agency:

       a. Perform the required surveillance of DynCorp International internal
controls as required by the Defense Contract Audit Agency Contract Audit Manual.

       b. Perform testing of DynCorp International interim public vouchers for
contract F44650-00-C0006 and contract FA4890-08-C-0004, as required by the
Defense Contract Audit Agency Contract Audit Manual 6-1008, “Review and
Approval of Interim Public Vouchers Submitted to the Auditor.” The auditors
should consider DynCorp International a high-risk contractor when selecting a
sample for testing.

DCAA Comments
The Regional Director, Central Region, DCAA, agreed with the recommendation, stating
that audits of DynCorp’s billing, labor, and compensation systems have been completed
within the last 6 months. The Regional Director stated that audits of the accounting,
estimating, purchasing, indirect costs, and other direct costs systems are in process with
estimated completion dates of August 2009 through November 2009. The Regional
Director indicated that audits of the budgeting and material systems are planned for
FY 2010, and that DCAA is currently auditing an interim voucher submitted under
contract F44650-00-C0006 and will review a sample of any additional interim vouchers
DynCorp submits under contract F44650-00-C0006. The Regional Director stated that
interim vouchers submitted under contract FA4890-08-C-0004 are subject to pre-

                                            27
payment interim voucher review processes because DCAA rescinded DynCorp’s
authority to participate in the direct billing program. Finally, the Regional Director stated
that DCAA implemented processes to perform post-payment interim voucher reviews of
DynCorp invoices.

Our Response
Comments from the Regional Director, Central Region, DCAA, were responsive and met
the intent of the recommendation. We request that the Regional Director provide results
of the DCAA audit work completed within the last 6 months and those audits estimated
to be completed by November 2009. No additional comments are required.




                                             28
Finding C. Minor Military Construction
AFCENT personnel did not use an appropriate type of contract action when contracting
for MMC. A cost-plus-fixed-fee type of contract action was inappropriate because
AFCENT personnel did not provide adequate Government surveillance to ensure that the
contractor executed the MMC projects efficiently and with effective cost controls. In
addition, AFCENT personnel were unable to identify the universe of MMC projects
executed under the WRM contract. AFCENT personnel failed to:

      prepare independent Government cost estimates to negotiate prices for MMC
       projects,
      provide oversight or quality assurance for MMC projects, and
      document acceptance of completed MMC projects.

As a result, AFCENT personnel could not identify the MMC projects funded by the
WRM contract. We identified $62 million obligated to the contract for 191 MMC
projects. Furthermore, AFCENT personnel may not have paid fair and reasonable prices
for MMC projects. AFCENT personnel have no assurance that MMC projects were
adequately completed. In order to improve construction contracting and accountability,
officials should:

      consider using a firm-fixed-price, indefinite-delivery, indefinite-quantity type of
       contract for construction requirements;
      obtain fair and reasonable prices by preparing independent Government cost
       estimates and using negotiation procedures for MMC projects; and
      assign a QAE for quality assurance and acceptance of MMC projects.


Criteria
The FAR and the DOD FMR provide guidance for MMC project contracting and
execution.

FAR Subpart 15.4: “Contract Pricing”
FAR Subpart 15.4 states that the objective of proposal analysis is to ensure that the final
agreed-upon price is fair and reasonable. The Government may use various price and
cost analysis techniques and procedures to ensure a fair and reasonable price.

FAR Subpart 16.3: “Cost-Reimbursement Contracts”
FAR Subpart 16.3 states that a cost-reimbursement contract may only be used when
appropriate Government surveillance during performance will provide reasonable
assurance that efficient methods and effective cost controls are used.




                                             29
FAR Part 36: “Construction and Architect-Engineer Contracts”
FAR Part 36 requires that a contracting activity evaluate contractor performance and
prepare a performance report for each construction contract of at least $550,000. An
independent Government cost estimate of construction costs should be prepared and
furnished to the contracting officer at the earliest practicable time for each proposed
contract and for each contract modification anticipated to cost $100,000 or more.
Generally, firm-fixed-price contracts should be used to acquire construction. Contracting
officers may use a cost-reimbursement contract to acquire construction only when its use
is consistent with FAR Subpart 16.3 and Part 15.

DOD FMR Volume 3, Chapter 17: “Accounting Requirements for
Military Construction Projects”
DOD FMR volume 3, chapter 17 states that project files should be maintained for each
project and should contain a complete historical record of the project from inception to
completion. Construction agents are responsible for holding the historical project files.
The installation commander, responsible engineering official, and the responsible fiscal
officer must sign a certification of costs prepared within 60 days after physical
completion of a project. The certification must include statements of the total cost
incurred on the project, the funded portion of total costs, the unfunded portion of total
costs, and a statement that funded costs incurred do not exceed authorized amounts.
Additionally, the acceptance of real property by a user organization must be documented.


MMC Project Funding and Contracting
AFCENT personnel could not identify the universe of MMC projects executed under the
WRM contract and did not properly obligate funds for the MMC projects executed under
the DynCorp WRM contract. Additionally, the WRM contracting officer did not
properly administer the WRM contract when procuring MMC services from DynCorp.
The WRM contracting officer obligated approximately $62 million to the WRM contract
for MMC requirements. The contracting officer subsequently de-obligated $18 million
and re-aligned $11 million for other requirements. As of September 30, 2008,
approximately $33 million remained on the WRM contract for MMC requirements.
AFCENT personnel could not explain how they obtained funding for MMC projects, how
much AFCENT paid for individual MMC projects, or how the contracting officer defined
project requirements in the WRM contract.

Project Universe
AFCENT personnel could not identify the universe of MMC projects executed under the
WRM contract. Documentation in the contract modification files indicated that the
WRM contracting officer authorized DynCorp to proceed with 77 MMC projects.
However, according to DynCorp’s Construction, Repair, and Alteration Report,16


16
 The WRM contract required DynCorp to prepare a Construction, Repair, and Alteration Report on a
monthly basis.

                                                 30
DynCorp completed construction on 91 MMC projects. Because of the discrepancy
between the DynCorp data and the contract file documents, we asked AFCENT personnel
for a complete list of MMC projects executed under the WRM contract; they were unable
to provide the information. In October 2008, AFCENT personnel provided a spreadsheet
to us that indicated 185 MMC projects had been funded by the WRM contract; however,
the spreadsheet did not contain 6 of the 77 projects authorized by the contracting officer
in contract modification files. We identified errors in the data and concluded that the
spreadsheet data were inaccurate, incomplete, and unreliable. In addition, AFCENT
personnel could not explain the source of the information in the spreadsheet. We
determined that the WRM contract funded 191 MMC projects based on the 185 projects
contained in the spreadsheet provided by AFCENT personnel and the 6 additional
projects listed in the contract modifications; however, we cannot be certain that this is a
reliable universe of projects because AFCENT personnel could not provide verifiable
data.

Project Funding
AFCENT personnel could not explain the process used to obtain funding for MMC
projects under the WRM contract. According to AFCENT civil engineering personnel,
the civil engineering directorate was responsible for securing funding for MMC projects
executed by the civil engineering directorate; however, the WRM program manager was
responsible for securing funding for MMC projects executed through the WRM contract.
Additionally, written AFCENT procedures for acquiring MMC services from DynCorp
specified that the WRM program manager was to secure funding for validated MMC
projects. However, the WRM program manager, who did not acknowledge any
responsibility for WRM program management, stated that he did not secure funding for
any MMC projects and was unable to explain how AFCENT personnel secured the
funding for the MMC projects.

The WRM contract did not identify the prices for specific MMC projects. The WRM
contracting officer obligated lump sum amounts for MMC requirements and often did not
identify MMC projects associated with the obligated funds. When the WRM contracting
officer did identify MMC projects in the WRM contract, the lump sum amount obligated
to the contract for the MMC projects did not equal the total estimated costs of the
projects. Consequently, we could not determine the amount funded for individual MMC
projects, and AFCENT personnel were unable to explain how much AFCENT paid for
each project.

In order to protect the interests of the Government, MMC projects should only be funded
when they are a Government priority. Further, funded amounts should be based on
estimated costs when using a cost-reimbursement contract. Without having controls in
place to ensure that only priority MMC projects were funded and that funded amounts
accurately reflected the estimated costs of MMC projects, AFCENT officials cannot be
sure that funds were expended responsibly and for valid requirements.




                                            31
Contracting for MMC
The WRM contracting officer did not properly administer the WRM contract when
procuring MMC services from DynCorp. Specifically, the contracting officer did not
properly define all MMC project requirements in the WRM contract. Furthermore, the
contracting officer did not use an appropriate type of contract action when contracting for
MMC projects, did not ensure that AFCENT paid a fair and reasonable price for the
MMC projects, and allowed DynCorp to receive fees for MMC projects that were never
completed.

The contracting officer wrote the contract modifications poorly by not properly defining
all MMC project requirements in the WRM contract. The contracting officer issued
contract modifications obligating funds for MMC projects; however, the contract
modifications did not sufficiently define the MMC projects. Specifically, the contracting
officer issued 25 contract modifications to obligate, de-obligate, or re-align funds for at
least 77 MMC projects; however, 16 of these modifications did not specify which project
the modification applied to or explain the reason for the contracting officer’s actions. For
example, the contracting officer obligated $21 million for Operation Iraqi Freedom
facilities in modification P00045 on September 28, 2003; however, the modification did
not specify which MMC projects the $21 million applied to or why AFCENT needed the
projects. We were unable to conclusively identify MMC projects funded or executed
through the WRM contract because the contracting officer did not contractually specify
the MMC projects to be constructed by DynCorp.

Contract Type
AFCENT personnel did not use an appropriate type of contract action when contracting
for MMC projects. Firm-fixed-price contracts generally should be used when acquiring
construction. A cost-reimbursement contract may be used when appropriate Government
surveillance during performance will provide reasonable assurance that efficient methods
and effective cost controls are used. However, AFCENT personnel did not provide
adequate Government surveillance to ensure that the contractor executed the MMC
projects efficiently and with effective cost controls because AFCENT personnel relied on
DynCorp to provide project surveillance.

AFCENT personnel should consider using a firm-fixed-price, indefinite-delivery,
indefinite-quantity type of contract for MMC requirements. Indefinite-delivery,
indefinite-quantity contracts provide flexibility for both quantities and delivery
scheduling and allow the Government to acquire services when the exact times and
quantities are not known at the time of contract award. WRM MMC requirements were
derived from WRM storage requirements and, as a result, can be unpredictable.
Therefore, an indefinite-delivery, indefinite-quantity contract would allow AFCENT
contracting personnel the flexibility to contract for MMC requirements as the
requirements arise. Additionally, construction contracts should generally be firm-
fixed-price. By issuing a firm-fixed-price contract, the contractor assumes the cost risks
of construction and has a higher incentive to perform efficient construction and use
effective cost controls.


                                            32
Contract Price
The WRM contracting officer did not ensure that AFCENT paid fair and reasonable
prices for MMC projects. The FAR states that contracting officers must purchase
services from responsible sources at fair and reasonable prices. Further, the FAR states
that an independent Government cost estimate of construction costs must be prepared and
furnished to the contracting officer for each proposed construction contract or contract
modification over $100,000. However, AFCENT personnel did not prepare independent
Government cost estimates for any of the MMC projects. Although AFCENT civil
engineering personnel stated that they evaluated DynCorp’s estimated project costs
documented on DD Forms 139117 to determine whether the costs were reasonable, the
AFCENT personnel had no historical data for cost comparisons and the evaluations were
based solely on DynCorp’s estimated costs. In addition, AFCENT personnel could not
provide DD Forms 1391 for 32 of the 191 MMC projects that AFCENT personnel
claimed were funded by the WRM contract. Therefore, the contracting officer had no
independent basis for determining whether construction prices were fair and reasonable.

AFCENT personnel should ensure that fair and reasonable prices are obtained by
preparing independent Government cost estimates and using negotiation procedures for
MMC projects. The contracting officer can develop a negotiation position to negotiate a
fair and reasonable price with the contractor by comparing proposed prices with
independent Government cost estimates to determine how well the proposed costs
represent what the cost of the contract should be.

Contract Fee
The WRM contracting officer allowed DynCorp to receive fixed fees for MMC projects
that were never completed. According to AFCENT contracting personnel, DynCorp
received a 5 percent fixed fee for MMC projects instead of receiving award fees for the
projects. The fixed fee was guaranteed at project completion, whereas an award fee is
based on evaluation of contractor performance. We were unable to verify that the
Government did not pay DynCorp award fees for the projects because the contract did not
consistently specify MMC projects and AFCENT officials did not accurately calculate
award fee pools (see finding E). AFCENT contracting personnel could not explain why
they used a fixed fee for MMC or how they determined that 5 percent was an appropriate
fee amount. The contracting officer established three SLINs in the contract for the
5 percent fee, totaling $1,367,116.

The Government overpaid DynCorp for the fixed fee on two separate occasions, and may
have overpaid DynCorp on a third occasion; however, we could not determine how much
DynCorp was overpaid because we could not identify the costs associated with each
MMC project or the MMC projects associated with the fixed fees. On August 2, 2001,
the contracting officer established a 5 percent fixed fee, totaling $84,734, for 10 MMC



17
  A DD Form 1391 is a project document signed by an appropriate approving official that allows an
independent reviewer to understand the project requirement, benefit, and total cost. DynCorp prepared the
DD Forms 1391 to document project requirements and AFCENT officials approved them.

                                                   33
projects in Qatar and authorized DynCorp to bill for the fixed fee for each project after
completion and acceptance of the individual project. AFCENT personnel subsequently
cancelled 4 of the 10 MMC projects but DynCorp billed and was paid for the entire fixed
fee for all 10 MMC projects.

On November 22, 2005, the contracting officer established a 5 percent fixed fee, totaling
$915,548, and also authorized DynCorp to bill for the fee after MMC projects associated
with SLINs 0402AG and 0402BG were completed. Contract modification P00034 listed
42 MMC projects associated with SLIN 0402AG. Based on the contract files, we could
not determine whether any MMC projects were associated with SLIN 0402BG. The total
estimated costs for the MMC projects associated with SLIN 0402AG were $11,272,590.
Therefore, DynCorp should have been entitled to a maximum fee of $563,630, or
5 percent of the estimated costs, upon completion of all 42 MMC projects associated with
SLIN 0402AG. AFCENT personnel subsequently cancelled 14 of the 42 MMC projects,
and DynCorp should only have been paid for the fee for the estimated costs of the 28
completed MMC projects. However, DynCorp billed and was paid for the entire
$915,548 initially established as the fixed fee.

On November 22, 2005, the contracting officer established a 5 percent fixed fee totaling
$366,834 for “all construction projects associated with SLINs 0302AF, 0302AH,
0302AN, and 0302AO.” On September 25, 2007, the contracting officer authorized
DynCorp to bill for the fee after completing the MMC projects associated with
SLINs 0302AF, 0302AH, 0302AN, and 0302AO. However, the contract did not specify
any MMC projects associated with these SLINs and AFCENT personnel did not maintain
historical project files. Therefore, we were unable to determine what MMC projects were
associated with these SLINs, the costs of the projects associated with these SLINs, or
whether the projects associated with these SLINS were completed. DynCorp billed and
was paid for the entire fixed fee. We could not determine whether DynCorp was
overpaid for the fixed fee because the contract did not specify what MMC projects the fee
was associated with.


Project Management and Accountability
AFCENT personnel did not provide adequate Government oversight and allowed
DynCorp personnel to perform inherently governmental functions by providing project
oversight and performing acceptance duties for the MMC projects. Additionally,
AFCENT personnel could not account for the actual costs of MMC projects.

Oversight and Acceptance
In January 2002, the contracting officer expressed concerns to AFCENT civil engineering
personnel regarding WRM MMC execution. The contracting officer indicated that
DynCorp had difficulty executing the MMC projects that it had been tasked to perform
because DynCorp was primarily focused on maintaining and reconstituting WRM assets
and had not focused on executing the MMC projects. The contracting officer stated that
AFCENT’s use of DynCorp would result in slow MMC project execution with little to no
project management and oversight. The contracting officer recommended using the

                                           34
Army Corp of Engineers or the Air Force Civil Augmentation Program for future MMC
projects. In response to the contracting officer’s concerns, the then-AFCENT Chief of
Civil Engineering rejected the use of the Army Corp of Engineers and stated that the use
of the Air Force Civil Augmentation Program may be a future possibility. The former
AFCENT Chief of Civil Engineering could not recall why he rejected the use of the
Army Corp of Engineers or whether he later considered the use of the Air Force Civil
Augmentation Program for WRM MMC projects.

Despite the contracting officer’s concerns about DynCorp’s ability to execute and
manage the MMC projects, AFCENT personnel did not provide oversight during the
construction process. The FAR requires that the Government implement appropriate
contract oversight that provides reasonable assurance that the contractor used efficient
methods and effective cost controls when using a cost-reimbursement contract.
AFCENT civil engineering personnel did not oversee the MMC projects because they
considered DynCorp responsible for oversight. AFCENT officials created a Facilities
Maintenance QAE position in July 2005. However, the Facilities Maintenance QAE
evaluated DynCorp’s ongoing maintenance responsibilities for existing WRM facilities,
and did not have oversight of the MMC projects.

AFCENT personnel relied on DynCorp to administer oversight of DynCorp’s own
performance. Therefore, DynCorp personnel inappropriately performed inherently
governmental functions prohibited by the FAR, and AFCENT officials had no assurance
that DynCorp used efficient means to complete the MMC projects or that DynCorp
implemented effective cost controls. AFCENT personnel did not prepare a performance
evaluation report for any project performed under the WRM contract, as required by the
FAR. Therefore, AFCENT personnel had no impartial means of evaluating DynCorp’s
performance.

AFCENT personnel also violated the FAR by allowing DynCorp personnel to perform
inherently governmental functions by accepting the MMC projects. AFCENT personnel
did not accept MMC projects on behalf of the Government, as required by DOD FMR
volume 3, chapter 17, and instead relied on DynCorp’s acceptance certificates for project
acceptance. Furthermore, AFCENT personnel could not provide DynCorp acceptance
certificates for 10 of the 105 MMC projects AFCENT personnel claimed DynCorp
completed. AFCENT personnel did not maintain any of the acceptance certificates;
AFCENT personnel acquired the available acceptance certificates from DynCorp in
September 2008 in order to satisfy our audit request. AFCENT procedures require
DynCorp to submit an acceptance certification and a Letter of Release of Claims to the
WRM program manager upon project completion and final payment for construction
work. However, the WRM program manager never received any acceptance
paperwork, nor did the WRM program manager ask DynCorp for the paperwork or
inquire about project acceptance.

As a result, AFCENT personnel have no assurance that MMC projects were adequately
completed. For example, DynCorp personnel completed a sandblasting facility in
February 2008 at the WRM storage site located in Thumrait, Oman. On June 22, 2008,

                                           35
the Facilities Maintenance QAE conducted a special surveillance of the newly
constructed sandblasting facility. The Facilities Maintenance QAE found that the facility
was non-operational. During the surveillance, the Facilities Maintenance QAE identified
seven deficiencies that affected facility operations. According to the Facilities
Maintenance QAE, the facility had not operated effectively since DynCorp’s acceptance
in February 2008. However, because the Facilities Maintenance QAE did not routinely
inspect newly constructed facilities, AFCENT personnel had no assurance that all of the
buildings constructed by DynCorp were operational. The contracting officer should
assign a QAE to perform project oversight and to accept MMC projects in order to
protect the Government’s interest and ensure that MMC projects are completed
efficiently and effectively.

Minor Military Construction Project Accountability
AFCENT personnel cannot account for the actual costs of individual MMC projects and
have no assurance that DynCorp used effective cost controls when performing MMC.
The DOD FMR requires the installation commander, responsible engineering official,
and the responsible fiscal officer to sign a certification of costs prepared within 60 days
after physical completion of a project. The certifications must include statements of the
total cost incurred on the project, the funded portion of total costs, the unfunded portion
of total costs, and a statement that funded costs incurred do not exceed authorized
amounts. AFCENT officials did not prepare the required cost certifications for any of the
MMC projects.

Additionally, construction agents must maintain historical project files representing a
complete historical record of each construction project from inception to completion.
AFCENT personnel did not maintain project files for the MMC projects. Because
AFCENT personnel did not maintain files for the MMC projects and did not consistently
define MMC project requirements in the WRM contract modifications, AFCENT
personnel were unable to provide the most basic information pertaining to MMC,
including the MMC projects funded by the contract, project start dates, cancellation
dates, project costs, or project completion dates.


Conclusion
The Government did not have internal controls in place to ensure that MMC costs were
properly obligated, managed, and paid. The contracting officer wrote the contract
modifications poorly by not including specific MMC projects and specific costs, making
it impossible to identify the required MMC projects, the estimated costs for those MMC
projects, and whether the costs were reasonable. Further, Government officials did not
monitor DynCorp billings (see finding B). Therefore, AFCENT personnel have no
assurance that they obtained required services at fair and reasonable prices.

AFCENT personnel did not manage the MMC projects and instead allowed DynCorp to
perform inherently governmental functions by overseeing its own performance and
executing final acceptance of completed MMC projects. Additionally, AFCENT
personnel did not maintain proper documentation pertaining to the MMC projects.

                                            36
AFCENT personnel had no independent evaluations of DynCorp’s performance, and
AFCENT may not have received the best value for the services performed.

AFCENT personnel did not act in the best interest of the Government when acquiring
MMC services from DynCorp. AFCENT personnel did not consistently establish
contractual agreements with DynCorp for MMC projects to be performed, ensure that the
MMC projects were fair and reasonably priced, oversee DynCorp’s project execution, or
properly accept MMC projects on behalf of the Government. In order to improve
construction contracting and accountability, officials should:

      consider using a firm-fixed-price, indefinite-delivery, indefinite-quantity type of
       contract for MMC requirements;
      ensure that fair and reasonable prices are obtained by preparing independent
       Government cost estimates and using negotiation procedures for MMC projects;
       and
      assign a QAE for quality assurance and acceptance of MMC projects.


Recommendations, Management Comments, and Our
Response
C. We recommend the Director, Acquisition Management and Integration Center,
Air Combat Command, require contracting personnel to:

       1. Consider using a firm-fixed-price, indefinite-delivery, indefinite-quantity
type of contract for minor military construction requirements and justify in writing,
if appropriate, using other than a firm-fixed-price, indefinite-delivery, indefinite-
quantity type contract for minor military construction requirements for the new
war reserve materiel contract (FA4890-08-C-0004).

Acquisition Management and Integration Center Comments
The Director of Installations and Mission Support, Air Combat Command, agreed with
the recommendation, stating that minor military construction projects performed under
the new war reserve materiel contract (FA4890-08-C-0004) will be executed on a
firm-fixed-price basis through a modification or a separate contract vehicle.

Our Response
Comments from the Director of Installations and Mission Support, Air Combat
Command, were responsive and met the intent of the recommendation. No additional
comments are required.

       2. Ensure that fair and reasonable prices are obtained by preparing
independent Government cost estimates and using negotiation procedures for minor
military construction projects.



                                            37
Acquisition Management and Integration Center Comments
The Director of Installations and Mission Support, Air Combat Command, agreed with
the recommendation, stating that independent Government estimates will be obtained for
MMC projects performed under the new war reserve materiel contract (FA4890-08-C-
0004) and negotiations will occur prior to the issuance of a Notice to Proceed for the
MMC projects.

Our Response
Comments from the Director of Installations and Mission Support, Air Combat
Command, were responsive and met the intent of the recommendation. No additional
comments are required.

      3. Define the duties of a quality assurance evaluator for quality assurance
and acceptance of minor military construction projects.

Acquisition Management and Integration Center Comments
The Director of Installations and Mission Support, Air Combat Command, agreed with
the recommendation and stated that QAEs will provide quality assurance oversight of
MMC projects but will not provide acceptance of the projects. The Director stated that
the contractor will submit a completion report and a DD Form 1354 to accept the MMC
projects. Additionally, the Director stated that the Acquisition and Management
Integration Center recommended that the WRM contractor only perform MMC projects
below the simplified acquisition threshold and that another Government agency execute
and accept all MMC projects over the simplified acquisition threshold.

Our Response
Comments from the Director of Installations and Mission Support, Air Combat
Command, were partially responsive to the intent of the recommendation. Air Force
officials could not ensure that MMC projects were adequately completed because Air
Force personnel did not provide project oversight or accept MMC projects on behalf of
the Government. Additionally, Air Force officials allowed DynCorp to perform
inherently governmental functions by overseeing its own performance and executing final
acceptance of completed MMC projects. The intent of the recommendation is for the Air
Force to provide appropriate oversight over the MMC process and ensure that the MMC
projects are adequately completed by providing project acceptance. The Director’s
comments adequately address the portion of the recommendation pertaining to quality
assurance oversight of MMC projects. However, by relying on a completion report
submitted by the contractor for project acceptance without Government personnel
validating the information in the report, the Air Force has no independent assessment that
the project was adequately completed. We request that the Director provide additional
comments specifically addressing the use of the completion reports submitted by the
contractor to accept the projects and describing how the Air Force will independently
validate that MMC projects were adequately completed.




                                           38
Finding D. Bona Fide Needs Rule
The WRM contracting officer obligated at least $6 million in Operations and
Maintenance funds for MMC projects in 1 fiscal year when the projects were not
programmed and approved until a later fiscal year. In some cases, MMC requirements
were not approved until 4 years after AFCENT personnel claimed the WRM contracting
officer obligated funds. This occurred because the WRM contracting officer did not
consistently apply the bona fide needs rule when executing MMC projects with
Operations and Maintenance funds.

In addition, we could not determine whether $50 million obligated to the WRM contract
for MMC violated the bona fide needs rule because the contract modifications did not
properly identify the MMC projects or link obligated funds to specific MMC projects, as
required by 31 U.S.C. 1501. As a result, the WRM contracting officer used expired
Operations and Maintenance funds to execute MMC projects and may have violated the
Antideficiency Act.


Criteria
The United States Code and the DOD FMR provide guidance for the appropriation and
obligation of funds. Appropriations are only available for limited periods of time. An
agency must incur a legal obligation to pay money within an appropriation’s period of
availability. If an agency fails to obligate funds before they expire, they are no longer
available for new obligations. Expired funds retain their “fiscal year identity” for 5 years
after the end of the period of availability. During this time, the funds are available to
adjust existing obligations or to liquidate prior valid obligations. However, expired funds
are not available for new obligations nor can they be used to purchase new requirements.

United States Code
According to 31 U.S.C. 1501, an obligation of the Government must be supported by a
written, binding agreement between the Government and another party that specifies the
services to be provided and is executed before the end of the period of availability for the
funds being used.

According to 31 U.S.C. 1502(a), appropriations are available only for the bona fide needs
of an appropriation’s period of availability. The bona fide needs rule states that the
balance of an appropriation or fund limited for obligation to a definite period is available
only for payment of expenses properly incurred during the period of availability, or to
complete contracts properly made within that period of availability and obligated
consistent with 31 U.S.C. 1501. However, the appropriation or fund is not available for
expenditure for a period beyond the period otherwise authorized by law.

The Antideficiency Act consists of several statutes that mandate administrative and
criminal sanctions for the unlawful use of appropriated funds (31 U.S.C. 1341, 1342,

                                             39
1350, 1351, and 1517–1519). These statutory provisions enforce the Constitutional
budgetary powers entrusted to Congress with respect to the purpose, time, and amount of
expenditures made by the Federal Government. Violations of other laws may trigger
violations of Antideficiency Act provisions (for example, the “the bona fide needs rule,”
31 U.S.C. 1502[a]). Violators of the Antideficiency Act may be subject to administrative
or criminal sanctions.

DOD FMR
Volume 3, chapter 15 of the DOD FMR states that at year’s end, installations must ensure
that obligations are accurately stated in view of the most current information available.
Installations should review and validate unfilled project orders funded by expiring
accounts, cancel orders that will not be started by January 1 of the ensuing fiscal years,
and review estimated obligations for possible overstatement or understatement.


AFCENT Compliance With the Bona Fide Needs Rule
The WRM contracting officer did not always follow the bona fide needs rule when
acquiring services for MMC with Operations and Maintenance funds.18 We determined
that the WRM contracting officer obligated at least $6 million in Operations and
Maintenance funds for MMC projects when MMC requirements were not appropriately
programmed or approved. We could not determine whether the contracting officer
violated the bona fide needs rule for $50 million obligated to the WRM contract for
MMC because we could not conclusively identify MMC projects funded by these funds.
The bona fide needs rule states that the balance of an appropriation or fund limited for
obligation to a definite period is available only for payment of expenses properly incurred
during the period of availability, or to complete contracts properly made and obligated
within that period of availability. The contracting officer obligated $62 million for MMC
requirements. We could not identify all the MMC projects funded by the $62 million
because the contracting officer executed inadequate contract modifications that did not
identify MMC projects or link obligated funds to specific MMC projects (see finding C).

The contracting officer issued 8 contract modifications that tasked DynCorp to perform
77 MMC projects. The contracting officer violated the bona fide needs rule by obligating
funds for MMC projects in two of those eight modifications. Additionally, we could not
determine whether the funds obligated in a third modification violated the bona fide
needs rule because AFCENT personnel could not provide adequate documentation. The
contracting officer appropriately obligated funds in the five remaining modifications. In
addition to the eight modifications that identified MMC projects, the contracting officer
issued nine additional contract modifications that did not identify MMC projects


18
  In determining when the contracting officer established a bona fide need for MMC projects, we
examined programming documents; communications between the contracting officer and DynCorp;
subcontracts; and any other documentation provided by AFCENT personnel to determine when MMC
projects were approved, when the contracting officer gave DynCorp consent to award a subcontract, or
when subcontracts were awarded.


                                                   40
associated with the funds obligated. We could not determine whether the contracting
officer violated the bona fide needs rule for the nine other contract modifications because
the contract did not properly identify MMC projects or link obligated funds to specific
MMC projects.

MMC Projects Identified in the WRM Contract
The contracting officer issued 8 contract modifications that identified 77 MMC projects
to be performed by DynCorp and obligated $12 million for the MMC projects. However,
the contracting officer did not specify the amount of funds being obligated for each
project. The contracting officer violated the bona fide needs rule by obligating funds for
MMC projects in two of those modifications. Additionally, we could not determine
whether the funds obligated in a third modification violated the bona fide needs rule
because AFCENT personnel could not provide adequate documentation.

Fiscal Year 2001
The contracting officer obligated FY 2001 Operations and Maintenance funds for MMC
projects that may not have been valid requirements for FY 2001. Specifically, on
August 24, 2001, the contracting officer issued a contract modification that obligated
approximately $400,000 for 10 MMC projects. However, nine of the DD Forms 1391
did not include an approval date, as required by Air Force guidance. AFCENT
personnel could not provide the DD Form 1391 for one project. Furthermore, AFCENT
personnel could not provide evidence that the contracting officer had given DynCorp
consent to award subcontracts19 for the MMC projects. Therefore, we could not
determine when AFCENT officials approved these requirements and whether the
requirements were bona fide needs of FY 2001.

Fiscal Year 2002
The contracting officer obligated FY 2002 Operations and Maintenance funds for MMC
projects that were not valid requirements for FY 2002. Specifically, the contracting
officer issued a contract modification on August 12, 2002, authorizing DynCorp to
proceed with 10 MMC projects. The modification did not state when the contracting
officer obligated funds for the MMC projects or what funds the contracting officer used
to fund the MMC projects. We determined that the MMC projects were funded in earlier
modifications with FY 2002 or earlier funds because an October 4, 2002, memorandum
from DynCorp to the contracting officer stated that the funding for the MMC projects
was included on existing CLINs; however, we could not determine the amount obligated
for the MMC projects or which modifications obligated funds for the MMC projects.

AFCENT officials did not program or approve five MMC projects until after FY 2002
and we could not determine when AFCENT officials approved the remaining five MMC
projects. AFCENT officials approved DD Forms 1391 for five MMC projects between

19
  DynCorp subcontracted MMC services. The contracting officer required DynCorp to obtain his consent
prior to awarding subcontract. AFCENT contracting personnel stated that they considered the contracting
officer’s consent to be a binding agreement between AFCENT and DynCorp specifying the MMC services
to be performed.

                                                  41
March 2003 and February 2005. Additionally, the DD Forms 1391 for four MMC
projects did not include an approval date, as required by Air Force guidance, and
AFCENT personnel could not provide a DD Form 1391 for one project.

FY 2002 Operations and Maintenance funds are available only for payment of expenses
properly incurred during FY 2002, or to complete contracts properly made and
appropriately obligated during FY 2002. Obligations must be supported by a written,
binding agreement that specifies the services to be provided. DynCorp should not have
incurred expenses for five MMC projects with estimated costs of $4 million in FY 2002
because the MMC projects were not approved during FY 2002. Additionally, the
contracting officer did not appropriately obligate the funds for these MMC projects
because the contracting officer did not have a written agreement specifying the services
to be provided when he obligated the funds. Therefore, the contracting officer violated
the bona fide needs rule by using expired FY 2002 funds to fund these MMC projects that
AFCENT officials approved in later years. However, we were unable to determine the
amount the contracting officer obligated that violated the bona fide needs rule for these
MMC projects because the modification did not connect obligated funds with specific
MMC projects.

Furthermore, AFCENT personnel could not provide DD Forms 1391 with approval dates,
evidence of an agreement between AFCENT and DynCorp specifying the work to be
performed, or subcontracts for the remaining five MMC projects with total estimated
costs of at least $250,000. Consequently, we were unable to determine whether the
contracting officer followed the bona fide needs rule when obligating funds for these
MMC projects.

Fiscal Year 2003
The contracting officer obligated $6 million in FY 2003 Operations and Maintenance
funds for MMC projects that were not valid requirements for FY 2003. Specifically, the
contracting officer issued a contract modification on December 17, 2002, authorizing
DynCorp to proceed with 42 MMC projects and obligated $6 million for the effort. We
determined that 39 of the MMC projects were not valid FY 2003 requirements.
AFCENT officials approved DD Forms 1391 for 28 MMC projects between April 2004
and April 2006, did not approve DD Forms 1391 for 8 MMC projects, and could not
provide DD Forms 1391 for 3 MMC projects.

AFCENT did not have a written agreement with DynCorp specifying the services to be
performed at the time of obligation. The contract modification simply listed project titles
and did not include project descriptions or specifications. Furthermore, AFCENT
contracting personnel stated that the written agreement specifying services to be
performed transpired when the contracting officer gave DynCorp consent to subcontract
for individual MMC projects. AFCENT personnel could provide only contracting officer
consent for 21 of 39 MMC projects; however, the contracting officer gave his consent for
these MMC projects between December 2004 and October 2005, over a year after he
obligated the funds.


                                            42
FY 2003 Operations and Maintenance funds are available only for payment of expenses
properly incurred during FY 2003, or to complete contracts properly made and
appropriately obligated during FY 2003. AFCENT officials did not approve 39 MMC
projects until FY 2004 or later. Therefore, DynCorp should not have incurred expenses
for these MMC projects in FY 2003. Additionally, the contracting officer did not
appropriately obligate the funds for these MMC projects because he did not have a
written agreement specifying the services to be provided when he obligated the funds.
Therefore, the contracting officer violated the bona fide needs rule by using expired FY
2003 funds to fund these MMC projects that AFCENT officials approved in later years.

MMC Projects Not Identified in the WRM Contract
In addition to the modifications that identified MMC projects, the contracting officer
issued nine other contract modifications that obligated or realigned prior obligations
totaling $50 million for MMC requirements; however, the contracting officer did not
identify MMC projects associated with those funds. The contracting officer improperly
obligated these funds because AFCENT did not have a written agreement specifying the
services to be performed when the contracting officer obligated the funds. According to
31 U.S.C. 1501, an obligation must be supported by a written, binding agreement
between the Government and another party. The agreement protects both parties by
specifying the service or deliverable and the related costs.

The contracting officer obligated funds near the end of a fiscal year with the apparent
intention of using the funds for future requirements. For example, on September 30,
2002, the contracting officer issued a contract modification obligating approximately
$6 million to minor construction SLINs. The contract modification did not identify any
MMC projects. On September 28, 2003, the contracting officer issued another contract
modification obligating $21 million to minor construction SLINs, again without
identifying any MMC projects. In July 2008, we requested a list of all MMC projects
funded by the WRM contract and the contract modifications associated with the projects.
In October 2008, AFCENT personnel provided a list that included 97 MMC projects
funded through these 2 modifications but could not explain how they determined which
MMC projects were funded through the modifications. Consequently, we could not
verify that the 2 modifications funded the 97 MMC projects. AFCENT personnel did not
have approved project requirements for the 97 MMC projects until years after the
contracting officer obligated the funds in these contract modifications, and some MMC
projects were not approved at all. AFCENT officials did not approve DD Forms 1391 for
21 of the 97 MMC projects and could not provide DD Forms 1391 for 23 additional
MMC projects. Of the remaining 53 MMC projects, AFCENT officials approved 6 of the
MMC projects in FY 2004 and 42 MMC projects in FY 2005 and FY 2006. AFCENT
officials did not approve five MMC projects that were initially funded in 2003 until June
and July 2007.

We could not determine whether the contracting officer violated the bona fide needs rule
for nine contract modifications that obligated funds for MMC projects because the
contract did not properly identify MMC projects or relate obligated funds to specific
MMC projects. Additionally, AFCENT personnel could not provide documentation

                                           43
showing when the contracting officer gave consent to DynCorp to subcontract for
99 MMC projects that AFCENT personnel claimed were funded by the WRM contract or
when construction started on the MMC projects. AFCENT personnel should conduct a
thorough review of MMC projects funded by the WRM contract to determine whether
contracting officials may have inappropriately obligated funds and violated the
Antideficiency Act.


AFCENT Bona Fide Needs Rule Application
AFCENT officials did not have procedures in place to ensure that the WRM contracting
officer consistently followed the bona fide needs rule. The contracting officer stated that
he “tried to have a DD Form 1391 signed before putting the project on contract.”
However, only 3 of the 191 MMC projects funded by the WRM contract had
DD Forms 1391 approved before the contracting officer funded the MMC projects.
AFCENT personnel stated that the DD Forms 1391 for the remaining MMC projects had
“probably” been signed when the MMC projects were funded. AFCENT personnel
stated that the contracting officer gave DynCorp a notice to suspend some MMC projects
because of changing DOD priorities after the MMC projects had been funded. According
to AFCENT personnel, when AFCENT tasked DynCorp to resume construction,
AFCENT personnel revised and approved the DD Forms 1391 again. However,
AFCENT personnel could not provide the notices to suspend MMC projects, the
direction to resume the MMC projects, or any DD Forms 1391 that AFCENT officials
approved prior to putting the funds on the contract.

AFCENT personnel cited an AFCENT Staff Judge Advocate legal opinion as the basis
for using expired funds to execute MMC projects. The legal opinion dated September
2004 stated that because AFCENT tasked DynCorp to perform the work in the year of the
funds’ availability and a period of inactivity occurred later, AFCENT met the
requirements of the bona fide needs rule because the bona fide needs rule is measured at
the time the agency incurs an obligation. However, AFCENT personnel could not
provide evidence that the contracting officer tasked DynCorp to perform the work in the
year of the funds’ availability for 114 of the 191 MMC projects; the 114 MMC projects
had estimated costs of $34 million.

Additionally, the legal opinion stated that the contracting officer obligated approximately
$27 million in FY 2003 funds in modification P00052 that identified 72 MMC projects
and contained CLINs for design and construction. However, the contracting officer
issued modification P00052 in FY 2004, not FY 2003. Furthermore, modification
P00052 did not identify MMC projects, did not obligate $27 million, and did not contain
CLINs for design or construction. Therefore, the Staff Judge Advocate determined that
the 72 MMC projects met AFCENT’s bona fide needs based on incorrect information.
AFCENT personnel could not explain why the Staff Judge Advocate’s legal opinion
contained erroneous information. Based on the inaccurate information in the legal
opinion, we determined that the legal review does not adequately document a basis for
using expired funds for the MMC projects.


                                            44
Conclusion
The WRM contracting officer used expired Operations and Maintenance funds to execute
MMC projects and may have violated the Antideficiency Act. While it is acceptable to
use expired funds for MMC projects in situations where the funds were obligated with the
intention of beginning work without unnecessary delay, AFCENT personnel could not
provide evidence that funds were obligated for construction with the intention of
beginning work immediately. Further, by obligating funds within days of the end of a
fiscal year for unknown requirements, it appears that the contracting officer was trying to
circumvent the bona fide needs rule by improperly “banking” Operations and
Maintenance funds for future year needs.

Additionally, installations must ensure that obligations are accurately stated at fiscal
year’s end when considering the most current information available. AFCENT personnel
should have reviewed unfilled project orders funded by expiring accounts at the end of
each fiscal year and cancelled orders not expected to be started by January 1 of the
following fiscal year. Subcontracts for 49 of the MMC projects clearly indicate that work
was not started by January 1 of the fiscal year following the year of obligation. AFCENT
personnel could not provide subcontracts or start dates for the remaining 142 MMC
projects AFCENT personnel claimed were funded through the WRM contract. AFCENT
personnel stated that they cancelled 69 of these MMC projects. AFCENT personnel
could not explain when or why the MMC projects were cancelled or whether the funds
were de-obligated for the cancelled MMC projects. The WRM contracting officer de-
obligated a total of $18 million from construction SLINs in various contract
modifications; however, most of the modifications did not explain why the contracting
officer de-obligated the funds. AFCENT officials should conduct a thorough review of
the use of all the funds obligated to the WRM contract for MMC to ensure that the proper
year funds were used when executing MMC projects.


Recommendations, Management Comments, and Our
Response
D. We recommend the Assistant Secretary of the Air Force (Financial Management
and Comptroller):

       1. Initiate a preliminary review of the potential violations of the
Antideficiency Act related to funds obligated to the old war reserve materiel
contract (F44650-00-C0006) for minor military construction within 10 days of this
report as required by DOD Regulation 7000.14-R, Financial Management
Regulation, volume 14, chapter 3, “Administrative Control of Funds and
Antideficiency Act Violations.”

       2. Complete the preliminary review within 90 days as required by DOD
Regulation 7000.14-R, Financial Management Regulation, volume 14, chapter 3,
“Administrative Control of Funds and Antideficiency Act Violations,” and provide
the results of the preliminary investigation to the DOD Office of Inspector General.

                                            45
Assistant Secretary of the Air Force (Financial Management and
Comptroller) Comments
The Air Force Deputy Assistant Secretary of Financial Operations responded for the
Assistant Secretary of the Air Force (Financial Management and Comptroller) and agreed
with the recommendation, stating that the Assistant Secretary of the Air Force (Financial
Management and Comptroller) has initiated a preliminary Antideficiency Act review and
will complete the investigation within 90 days.

Our Response
Comments from the Air Force Deputy Assistant Secretary of Financial Operations for the
Assistant Secretary of the Air Force (Financial Management and Comptroller) were
responsive and met the intent of the recommendation. No additional comments are
required.




                                           46
Finding E. Award Fee
The WRM contracting officer:

      inappropriately authorized additional award fees after actual costs were
       determined, resulting in a prohibited cost-plus-a-percentage-of-cost system of
       contracting;
      may have overpaid award fees for work that was not performed across the entire
       award fee period; and
      may have authorized additional award fee for DynCorp performance that was not
       evaluated.

Additionally, AFCENT officials improperly calculated award fee pools and did not
adequately support final award fee determinations. These conditions occurred because
AFCENT officials did not comply with basic contract requirements for calculating award
fees and the Department of the Air Force Award Fee Guide. As a result, AFCENT
officials:

      inappropriately authorized an additional $893,160 in award fees,
      overpaid DynCorp by approximately $195,000, and
      cannot justify 4 of 17 final award fee determinations.


Criteria
FAR 16.102, “Policies,” states that the cost-plus-a-percentage-of-cost system of
contracting will not be used.

The Department of the Air Force Award Fee Guide states that there is no single approach
required by the FAR for establishing the amount of an award fee pool; however, the
approach should be logically developed and reflect the complexity of the contract effort.

The Department of the Air Force Award Fee Guide also requires the fee determining
official (FDO) to explain and document in the contract file the rationale for any
determination that differs from the contract award fee board recommendation.


Award Fee Process
The objective of an award fee is to create contractor incentive for performance in areas
that are the most critical to the Government. DynCorp’s performance rating was based
on QAE evaluations. QAEs evaluated DynCorp’s performance and reported to the ACO.
The QAE reports were analyzed by the ACO and consolidated into quarterly quality
assurance surveillance reports by functional area. The results of these reports were then
presented to the contract award fee board on a semi-annual basis when each contract

                                           47
award fee board member considered DynCorp’s performance and voted on a proposed
numerical rating. An overall assessment, less the numerical ratings, was then provided to
DynCorp for comment, and based on DynCorp’s response, any necessary adjustments
were made to both the assessment and respective ratings. Finally, an integrated
assessment was presented to the FDO, who made the semiannual award fee
determination.


Award Fee Payments
The WRM contracting officer inappropriately authorized DynCorp to bill $893,160 for
additional award fee after actual costs were determined, resulting in a prohibited cost-
plus-a-percentage-of-cost system of contracting. Specifically, the WRM contracting
officer authorized an additional:

        $44,079 for option year one, period one in contract modification P0001520;
        $58,551 for option year one, period two in contract modification P00025;
        $371,689 for option year three, period one in contract modification P00044; and
        $418,841 for nine award fee periods throughout the contract life in contract
         modification P00088.

AFCENT personnel stated that in some cases DynCorp was required to perform
additional work when the initial estimated cost was unknown. In those cases, the WRM
contracting officer added funding to the contract so that DynCorp could begin performing
the required services without submitting a proposal. The WRM contracting officer stated
that he definitized the additional work when AFCENT and DynCorp agreed on a final
and actual cost after the work was performed. The WRM contracting officer then issued
a contract modification that authorized DynCorp to receive an additional fee, up to the
percentage of award previously authorized by the FDO, in the award fee period that the
work was performed. The WRM contracting officer definitized work anywhere from
6 months to 3 years after the work was completed.

The basic contract required that estimated costs be used as the basis for determining
award fee and no additional fee would be paid on actual costs. However, the WRM
contracting officer authorized DynCorp to bill for the additional award fee that was
calculated using actual costs as the basis. In most cases the WRM contracting officer had
DynCorp proposals with estimated costs dated within the award fee period in which the
work was performed; however, the WRM contracting officer did not definitize the
additional work until after the work was completed and based the additional award fees
on actual costs. The WRM contracting officer should have based the additional award
fee on DynCorp’s estimated costs as required by the basic contract. Consequently, the
WRM contracting officer administered the WRM contract as a prohibited cost-plus-a-


20
  The WRM contract was structured with two award fee periods for each option year. The first award fee
period was from October 1 through March 31 and the second award fee period was from April 1 through
September 30.

                                                  48
percentage-of-cost system of contracting because he authorized additional award fees
based on actual costs after work was completed.

In addition, the contract files did not always contain authorizations from the WRM
contracting officer for DynCorp to begin work on additional requirements that were
within the general scope of the contract, as required by the basic contract. For example,
the WRM contracting officer authorized an additional $47,619 of award fee in contract
modification P00025 for work performed in support of Operation Enduring Freedom
during option year one, period two. On September 30, 2001, the last day of option year
one, the WRM contracting officer obligated funding for DynCorp to bill for Operation
Enduring Freedom. The WRM contracting officer did not authorize DynCorp to begin
work in support of Operation Enduring Freedom in any contract modifications dated prior
to September 30, 2001. Without prior authorization from the WRM contracting officer,
DynCorp should not have performed any work in support of Operation Enduring
Freedom prior to September 30, 2001. Therefore, the WRM contracting officer
authorized DynCorp to bill for an additional $47,619 in award fee for work performed for
only one day of the award fee period.

We requested WRM contracting personnel to provide the WRM contracting officer’s
authorization for DynCorp to begin additional work that was within the general scope of
the contract and that was definitized after the end of each award fee period in which the
WRM contracting officer authorized additional award fees; however, WRM contracting
personnel could not provide the WRM contracting officer’s authorizations. We cannot
determine whether the WRM contracting officer authorized additional award fees that
were for work actually performed for the entire award fee period without the date the
WRM contracting officer authorized DynCorp to begin work.

Furthermore, the WRM contracting officer may have authorized additional award fees for
DynCorp performance that was not evaluated. In the award fee process, the contract
award fee board evaluates DynCorp’s performance for the entire award fee period and
recommends a percentage of the available award fee pool to the FDO for approval;
however, there was no evidence in the contract file that the WRM contracting officer
determined whether DynCorp’s performance on additional requirements that were within
the general scope of the contract was adequate to receive additional award fees up to the
percentage awarded by the FDO. Had the work been definitized during the award fee
period, DynCorp’s performance evaluation would have been included in the contract
award fee board’s review and the overall percentage of award fee earned may have been
different based on how well DynCorp performed the additional work.


Calculation of Award Fee Pools
AFCENT contracting personnel improperly calculated 12 award fee pools resulting in
DynCorp being overpaid by approximately $195,000. AFCENT personnel did not define
procedures to calculate award fee pools in the WRM award fee plan. AFCENT personnel
should have included detailed procedures to calculate the award fee pools in the WRM


                                            49
award fee plan to ensure that DynCorp’s award fee accurately reflected its performance
for the entire award fee period.

The WRM contracting officer stated he used 4 percent21 of the entire estimated value of
all CLINs and SLINs used to calculate the award fee pool during each 6-month award fee
period. The estimated value of the fee-bearing CLINs and SLINs was based on
DynCorp’s performance level, which varied throughout the award fee period. We
determined that the WRM contracting officer used the pool value that reflected
DynCorp’s highest performance level during the period as the basis for calculating the
award fee for the entire period. DynCorp’s performance throughout the award fee period
was not always at the highest level that the WRM contracting officer based the award fee
on. As a result, DynCorp often received a higher award fee than it should have because
the WRM contracting officer calculated an award fee pool that did not accurately reflect
DynCorp’s varying performance level throughout the period. The WRM contracting
officer should have prorated DynCorp’s award fee based on DynCorp’s different
performance levels during the award fee period.

For example, for option year two, period two, the WRM contracting officer calculated an
award fee pool of $1,143,404 for the entire award fee period. The FDO awarded
DynCorp $1,051,932 in award fees, or 92 percent of the award fee pool. We determined
that DynCorp increased its workload for the last 50 days, or approximately 28 percent of
the 180-day award fee period.22 The award fee pool that reflected DynCorp’s defined
workload at the beginning of the award fee period was $525,522, and the award fee pool
that reflected DynCorp’s increased workload at the end of the award fee period was
$1,245,744. The award fee pool used to calculate DynCorp workload for the first
130 days should have been approximately 72 percent of $525,522; the award fee pool
used to calculate DynCorp workload for last 50 days should have been approximately 28
percent of $1,245,744. Therefore, we determined that the total available award fee pool
for the entire award fee period should have been $725,584 and DynCorp should have
earned $667,537 based on the 92 percent of award fee authorized by the FDO. AFCENT
officials awarded DynCorp $384,395 more than they should have because the WRM
contracting officer did not calculate an award fee pool for the award fee period that
accurately reflected DynCorp’s performance.

The following table shows the award fee pool and subsequent award that the WRM
contracting officer calculated compared to the prorated calculations for each award fee
period. We calculated the pool amounts based on DynCorp’s performance level for each
day in the period. In addition, the table shows the amount of award fee that the WRM
contracting officer authorized DynCorp to bill for in the contract modification for each
award fee period.




21
     The 4 percent was in accordance with WRM basic contract requirements.
22
     Percentages above were rounded; however, dollars were calculated without rounding.

                                                     50
                                              Table 2. Award Fee Miscalculations
    Award Fee            WRM            Percent       Award Fee             Our              Award Fee         Award Fee              Net
     Period            Contracting         of         Authorized         Calculation         DynCorp           Authorized         Amount of
                         Officer         Award                          of Award Fee        Should Have         by WRM            Award fee
                       Calculated       Fee Pool                            Pool              Earned           Contracting         Over or
                       Award Fee        DynCorp                                                                 Officer in         (Under)
                          Pool           Earned                                                                 Contract            Paid to
                                                                                                               Modification       DynCorp
Base Year                $233,831           63          $147,313           $233,8501          $147,326          $147,313             ($13)

Option Year 1,           $411,648           75          $308,736           $411,6811          $308,761           $306,736          ($2,025)
Period 1
Option Year 1,           $467,754           96          $449,044           $423,2102          $406,282           $449,044           $42,762
Period 2
Option Year 2,           $534,619           96          $513,234           $525,5221          $504,501           $513,234           $8,733
Period 1
Option Year 2,          $1,143,404          92         $1,051,932          $725,5842          $667,537          $1,051,932         $384,395
Period 2
Option Year 3,           $548,274          100          $548,274           $548,274           $548,274           $548,274              $0
Period 1
Option Year 3,           $919,959           96          $883,161           $672,1692          $645,282           $883,159          $237,877
Period 2
Option Year 4,           $947,443           92          $871,647           $947,444           $871,647           $871,647              $0
Period 1
Option Year 4,           $948,752         88.97         $844,105           $947,9562          $843,397           $842,940           ($457)
Period 2
Option Year 5,           $966,826         79.57         $769,303           $966,826           $769,303           $769,303              $0
Period 1
Option Year 5,           $966,826          83.5         $807,300           $966,826           $807,300           $798,315          ($8,985)
Period 2
Option Year 6,           $837,400           90          $753,660           $826,6301          $743,967           $883,309          $139,342
Period 1
Option Year 6,           $837,400         89.97         $753,409           $826,6301          $743,719           $848,010          $104,291
Period 2
Extension               $1,253,978          79          $990,643         $1,879,1301         $1,484,513         $1,122,366        ($362,147)
Year 1, Period 1
Extension               $1,215,673        90.94        $1,105,533        $1,371,1241         $1,246,900         $1,006,065        ($240,835)
Year 1, Period 2
Extension               $1,302,146          86         $1,119,846          $1,302,146        $1,119,846         $1,119,846             $0
Year 2, Period 1
Extension               $1,127,988          80          $902,390         $1,263,4121         $1,010,730          $902,390         ($108,340)
Year 2, Period 2
TOTAL                                                 $12,819,530                           $12,869,285         $13,063,883        $194,598

1
  We used the WRM contracting officer’s methodology to calculate the award fee pool for this award fee period, which resulted in a different
award fee pool than what the WRM contracting officer calculated.
2
  DynCorp’s workload varied during this award fee period. We calculated this award fee pool by taking the weighted average of the total
estimated value of all fee bearing CLINs and SLINs during the award fee period.




                                                                      51
The WRM contracting officer improperly calculated 12 out of the 17 award fee pools for
the WRM contract. In addition, the WRM contracting officer improperly modified the
contract in 8 out of the 17 award fee periods by authorizing DynCorp to bill for an
amount different than the award fee authorized by the FDO. Because of the errors made
by the WRM contracting officer, DynCorp was:

      overpaid in six award fee periods,
      underpaid in seven award fee periods, and
      correctly paid in four award fee periods.

As a result DynCorp was overpaid approximately $195,000 in award fees.

If AFCENT officials had implemented detailed procedures to calculate award fee pools
that reflected the complexity of the contract effort, DynCorp may have been paid award
fees that were logical, reasonable, and sufficient to properly compensate the contractor.
In addition, if the contract award fee board had reviewed the WRM contracting officer’s
award fee pool calculations, AFCENT officials would have had reasonable assurance that
the award fee was based on accurate data.


Final Award Fee Determinations
Final award fee determinations in 4 of 17 award fee periods were not adequately
supported. Specifically, the FDO did not support his final award fee determination when
it differed from the contract award fee board’s recommendation in accordance with DOD
guidance. The FDO did not document his rationale for:

      increasing the award fee by $10,966 for option year three, period one;
      increasing the award fee by $8,374 for option year six, period two;
      decreasing the award fee by $88,280 for extension year one, period one; and
      decreasing the award fee by $59,247 for extension year two, period one.

The WRM award fee evaluation plan did not comply with the Department of the Air
Force Award Fee Guide that required the FDO to document his rationale for any
determination that differed from the contract award fee board recommendation. The
original award fee evaluation plan was updated twice during the life of the WRM
contract. The second version was the only version of the three award fee evaluation plans
that stated the contract file must include supporting rationale if the FDO’s determination
of earned award fee differs from the contract award fee board recommendation.

If AFCENT had complied with the Department of the Air Force Award Fee Guidebook,
the Government would have had reasonable assurance that the final award fee
determinations were justified.




                                           52
Conclusion
The WRM contracting officer inappropriately authorized DynCorp $893,160 in
additional award fees based on actual costs, resulting in a prohibited cost-plus-a-
percentage-of-cost system of contracting. If the WRM contracting officer had calculated
award fees based on estimated costs as required by the basic contract, the Government
would not have violated the FAR by authorizing award fees based on actual costs.
Additionally, DynCorp may have been paid award fees for work that the WRM
contracting officer did not authorize DynCorp to perform in that specific award fee
period. Because the WRM contracting officer did not calculate award fees that
accurately reflected DynCorp’s performance over the life of the contract, AFCENT
officials may have overpaid DynCorp by approximately $195,000.

AFCENT officials did not adhere to DOD guidance for documenting final award fee
determinations. The FDO did not document his rationale for authorizing award fee
amounts that differed from the contract award fee board’s recommendation. If AFCENT
officials had adhered to DOD guidance, the Government would have reasonable
assurance that the FDO made final award fee determinations with a reasonable basis.


Recommendations, Management Comments, and Our
Response
E.1. We recommend the Commander, U.S. Air Forces Central, require the
chairman of the award fee board to perform a detailed review of the award fee pool
calculations made under the old war reserve materiel contract (F44650-00-C0006)
and identify and correct any under or overpayments made to DynCorp
International for award fees.

AFCENT Comments
The Chief of Staff for the Commander, AFCENT, agreed with the recommendation,
stating that the Commander will appoint a team of functional experts to complete a
review of the award fee pool calculations made under the old war reserve materiel
contract by February 2010. Additionally, the Chief of Staff indicated that the contract
closeout team will include the results of the review in the final settlement with DynCorp
International.

Our Response
The Chief of Staff’s comments were responsive and met the intent of the
recommendation. We request that the Chief of Staff provide the results of the review of
the award fee pool calculations made under the old war reserve materiel contract. No
additional comments are required.

E.2. We recommend the Director, Acquisition Management and Integration Center,
Air Combat Command:



                                            53
        a. Require the war reserve materiel contracting officer to calculate the award
fee for the new war reserve materiel contract (FA4890-08-C-0004) based on
estimated costs to avoid violating Federal Acquisition Regulation Subpart 16.1,
“Selecting Contract Types.”

        b. Develop and implement detailed procedures to calculate award fee pools
for the new war reserve materiel contract (FA4890-08-C-0004) based on the
complexity of the contract effort.

       c. Require the fee determining official to document final award fee
determinations that differ from the contract award fee board’s recommendation for
the new war reserve materiel contract (FA4890-08-C-0004) in accordance with the
Department of the Air Force Award Fee Guide.


Acquisition Management and Integration Center Comments
The Director of Installations and Mission Support, Air Combat Command, agreed with
the recommendation, stating that the Acquisition and Management Integration Center
will base the award fee on estimated costs and has developed an Award Fee Pool
Calculation Tool to validate pool amounts. Additionally, the Director stated that it is
Acquisition and Management Integration Center policy that the FDO document final
award determinations that differ from the contract award fee review board’s
recommendation.

Our Response
Comments from the Director of Installations and Mission Support, Air Combat
Command, were responsive and met the intent of the recommendation. No additional
comments are required.




                                           54
Finding F. Government Property
WRM contracting personnel did not adequately oversee the sale of Government property.
Specifically, WRM contracting personnel did not review and approve the sale of assets
prior to DynCorp conducting sales or ensure that the proceeds from all sales were
credited to the WRM contract. Additionally, WRM contracting personnel did not
adequately review DynCorp’s property control system. These conditions occurred
because the WRM contracting officer did not execute his property administration duties
or delegate responsibility for property administration to the ACOs. As a result, AFCENT
personnel could not fully account for proceeds from 86 sales of Government property.
Additionally, AFCENT officials cannot be sure that all assets DynCorp disposed of were
appropriately classified as unusable scrap.


Criteria
The FAR provides guidance on inherently government functions, contract administration,
property administration, and sales of Government property. The Department of Defense
Manual provides guidance on property system analysis.

FAR Subpart 7.5: “Inherently Government Functions”
FAR 7.503(c)(11) states that the determination to dispose of Government property is an
inherently government function.

FAR 42.302: “Contract Administration Functions”
FAR 42.302 states that the contracting officer normally delegates property administration
duties to the cognizant contract administration office. FAR Part 45, “Government
Property,” defines property administration as policies and procedures used for providing
Government property to contractors; the contractor’s use and management of
Government property; and reporting, redistributing, and disposing of Government
property.

FAR Subpart 45.6: “Reporting, Reutilization, and Disposal”
FAR 45.602-1 states that the plant clearance officer must review and accept an SF 1428,
“Inventory Disposal Schedule,” or return it for correction within 10 days following
receipt from a contractor. The plant clearance officer will use an SF 1423, “Inventory
Verification Schedule,” to verify accepted inventory disposal schedules. Additionally,
the plant clearance officer will promptly prepare an SF 1424, “Inventory Disposal
Report,” following the disposition of the property identified on an inventory disposal
schedule. The inventory disposal report is sent to the contracting officer and lists the
total amount of proceeds that need to be credited to the contract from the sale of the
assets listed on the inventory disposal schedule.




                                           55
FAR 45.105: “Contractors’ Property Management System
Compliance”
FAR 45.105 states that the agency responsible for contract administration will review and
approve the contractor’s property control system.

DOD Manual 4161.2-M: “Manual for the Performance of
Contractor Property Administration”
DOD Manual 4161.2-M states that the property administrator will evaluate the
contractor’s property control system, which includes the contractor’s written procedures
and the application of and/or compliance with those procedures. All property system
analysis must include reviews comparing records to property and property to records.
The property administrator must also establish a property control data file that contains
the records of property system analysis performed on the contract. When the contractor’s
property control system is acceptable, the property administrator will advise the
contractor in writing.


Sales of Government Property
WRM contracting personnel did not adequately oversee the sale of Government
property23 related to the WRM contract with DynCorp. From 2001 through 2008,
DynCorp conducted 86 sales of Government property, valued at approximately $600,000.
FAR 45.101 defines Government property as both Government-furnished property and
contractor-acquired property. Government-furnished property is defined as property
acquired by the Government and made available to the contractor. Contractor-acquired
property is defined as property that the Government has title of and was acquired or
provided by the contractor to perform contract requirements.

WRM contracting personnel did not review Government property and approve DynCorp
to conduct 83 of 86 sales, allowing DynCorp to perform an inherently Government
function by determining what Government property DynCorp was going to sell.
Additionally, WRM contracting personnel did not ensure that proceeds from 51 sales of
Government property, valued at approximately $273,000, were fully credited to the
WRM contract.




23
     Government property refers to non-WRM assets that are used to support the WRM contract.

                                                    56
Government Review and Approval of Sales
WRM contracting personnel did not review Government property and approve DynCorp
to conduct 83 of 86 sales, allowing DynCorp to perform an inherently Government
function by determining what Government property DynCorp was going to sell.
Specifically:

                 For 15 sales, WRM contracting personnel issued approvals for DynCorp
                  to conduct the sales without reviewing the assets DynCorp requested to
                  dispose of.
                 For 68 sales, WRM contracting personnel did not conduct a review of the
                  assets DynCorp requested to sell, or issue an approval for DynCorp to
                  conduct the sales.

Additionally, the Government cannot be sure that all assets DynCorp disposed of were
appropriately classified as unusable scrap24 because WRM contracting personnel did not
review and approve assets prior to disposal.

The WRM contracting officer stated that the Supply QAE was responsible for inspecting
and verifying the quantity and condition of Government property during scheduled
inspections prior to DynCorp conducting sales. The Supply QAE documented the
inspection results in Supply QAE Reports that were consolidated into overall quality
assurance surveillance reports. We reviewed all quality assurance surveillance reports
from September 2000 through September 2008 and determined that the Supply QAE did
not inspect or verify the quantity or condition of Government property prior to DynCorp
conducting sales.

Additionally, WRM contracting personnel did not issue approvals prior to DynCorp
selling 32 of 77 vehicles classified as Government property. DynCorp provided sale
award letters and cash disbursement vouchers showing that it had sold 77 vehicles.
DynCorp’s cumulative sales tables25 showed multiple sales of unserviceable vehicles;
however, the tables did not contain vehicle identification numbers or sale identification
numbers that could be traced back to the individual sale award letters or cash
disbursement vouchers. Consequently, we were unable to determine how many of the
77 vehicles were included in the 86 sales of Government property.

The WRM contracting officer did not require DynCorp to submit an SF 1428 to request
sales of assets. Additionally, the WRM contracting officer did not use an SF 1423 to
record his approvals for those sales, as required by FAR Subpart 45.6. Submitting
inventory disposal schedules and recording approvals on the inventory verification


24
   Unusable scrap is Government property that has reached the end of its useful life and is beyond
economical repair.
25
   DynCorp provided three sales tables that list Government property sales dates, dollar values, and a short
description of type of Government property sold from 2000 through 2005, 2006 through 2007, and 2008.
DynCorp personnel stated that the tables list all sales of Government property that DynCorp conducted for
the WRM contract.

                                                     57
surveys would have allowed the WRM contracting officer to track each sale of
Government property and whether those sales were properly credited to the WRM
contract.

Crediting the WRM Contract
WRM contracting personnel did not ensure that proceeds from 51 sales of Government
property, valued at approximately $273,000, were fully credited to the WRM contract.

              For 35 sales, valued at approximately $239,000, DynCorp provided
               documentation showing that the proceeds from the sales were fully
               credited to the WRM contract.
              For three sales, DynCorp provided documentation showing that it received
               proceeds totaling $105,000; however, DynCorp was only able to show that
               $88,000 of the proceeds were credited to the WRM contract. The
               remaining $17,000 was not credited to the WRM contract.
              For 48 sales, valued at approximately $256,000, the WRM contract was
               not credited.

WRM contracting personnel did not review DynCorp-generated sales documentation to
ensure that proceeds from the sales were being credited to the WRM contract. WRM
contracting personnel stated that they knew that the proceeds were being credited back to
the contract, but they could not explain the sale credit process; no individual in the WRM
program office actually verified whether the sale proceeds were credited to the WRM
contract.

We requested DynCorp to provide documentation showing that the proceeds from the
sales were credited to the WRM contract because WRM contracting personnel could not
provide the documentation. DynCorp personnel stated that while gathering the
documentation, they discovered that during an accounting system conversion in 2005,
several sale credits did not convert from the old to the new system; therefore, AFCENT
never received $269,000 of credits from the sales that occurred prior to the accounting
system conversion in 2005. The remaining $4,000 that was not credited to the WRM
contract resulted from one sale that occurred in October 2006 and one sale that occurred
in March 2008. DynCorp repayment of the $273,000 should result in a one-time
potential monetary benefit and allow those funds to be put to better use.

WRM contracting personnel did not review DynCorp public vouchers to ensure that
credit was given for Government property sale proceeds. The WRM contracting officer
stated that DCAA would review the sales amounts during its incurred cost audits to
ensure that the proceeds from the sales were properly credited to the WRM contract.
DCAA personnel stated that they did not verify or ensure that proceeds from the sale of
Government property were properly credited to the WRM contract when they performed
incurred cost audits in FY 2000, FY 2001, FY 2002/2003, and FY 2004.




                                            58
Property Control System Review
WRM contracting personnel did not adequately review DynCorp’s property control
system, as required by FAR 45.105 and DOD Manual 4161.2-M. The WRM contracting
officer stated that DynCorp had an approved property control system according to a letter
from the Defense Contract Management Agency Dallas. The Defense Contract
Management Agency letter, dated January 30, 2007, referenced attached procedures and
stated that the procedures had been reviewed by the Defense Contract Management
Agency Dallas and were found to be acceptable for the purpose of property
administration under current contract requirements. The letter did not state what
referenced procedures were reviewed, and the referenced procedures were not attached to
the letter. Additionally, the Defense Contract Management Agency Corporate
Administrative Contracting Officer stated that his agency had not conducted any type of
property control system analysis of the WRM contract since he became the Corporate
Administrative Contracting Officer in 2005, 2 years before the date of the letter. The
Defense Contract Management Agency Corporate Administrative Contracting Officer
added that he did not know how the WRM contracting officer received a copy of the
letter because the letter did not mention the contract under which the analysis was
performed and does not list the type of analysis that was performed on the property
control system. Furthermore, the Defense Contract Management Agency Corporate
Administrative Contracting Officer stated that property is specific to the contract it is
meant to support, and the agency that is responsible for contract administration for a
contract should conduct the property control system review.

WRM contracting personnel stated that they would conduct an inventory assessment of
Government property when WRM contracting personnel made their annual trip to
Southwest Asia each year. The inventory assessment would compare approximately 5 to
20 non-WRM assets at each WRM storage location to the DynCorp Government property
list. As of April 2007, the DynCorp Government property list included approximately
6,254 assets.26 Consequently, verifying 5 to 20 non-WRM assets at each WRM storage
location would not provide an accurate or reliable inventory assessment or provide
assurance that DynCorp has an acceptable property control system.

The WRM contracting officer stated that the Supply QAE conducted an inventory of
Government property by comparing non-WRM assets to the DynCorp Government
property list each time the Supply QAE performed an inspection at a WRM storage
location. We reviewed all quality assurance surveillance reports from September 2000
through September 2008 and determined that from September 2000 through March 2007,
the Supply QAE did not inventory Government property when the QAE performed
inspections at WRM storage locations. Additionally, we determined that from April 2007
through September 2008, the Supply QAE conducted an inventory sample of
Government property 19 times and noted 11 discrepancies during the surveillance.


26
  From late February 2009 to early April 2009, we made several attempts to obtain an updated Government
property list from WRM contracting personnel; however, WRM contracting personnel never provided us
with an updated list. Therefore, we used the April 2007 Government property list to complete our analysis.

                                                   59
Consequently, the WRM contracting officer did not ensure that DynCorp was adequately
storing or tracking Government property.


Property Administration
The WRM contracting officer did not execute his property administration duties or
delegate the responsibility for property administration to the ACOs in Southwest Asia.
The FAR states that the contracting officer normally delegates property administration
duties to the cognizant contract administration office; however, the ACO delegation
letters signed by the WRM contracting officer do not list property administration as one
of the delegated functions. The ACOs stated that they do not perform any property
administration functions; the WRM contracting officer retained all of those
responsibilities at AFCENT headquarters. In an e-mail dated July 21, 2008, an ACO
stated that he was unaware that DynCorp was disposing of Government property. In an
e-mail dated November 17, 2008, the same ACO stated that since he arrived in Southwest
Asia in March 2008, he did not monitor the Government property sale process.

The WRM contracting officer should have delegated property administration to the
ACOs in Southwest Asia because the ACOs were located near the DynCorp program
office and could easily be deployed to any WRM storage location to review assets
listings, approve DynCorp Government property sales, and perform reviews of
DynCorp’s property control system. The WRM contracting officer was located at
AFCENT headquarters at Shaw Air Force Base, South Carolina, which did not allow the
WRM contracting officer to monitor DynCorp’s use, management, and disposal of
Government property.

The WRM contracting officer would have been able to track whether assets were
reviewed and approved for disposal prior to DynCorp conducting sales of Government
property if he had required DynCorp to submit an SF 1428 and recorded his approvals on
an SF 1423. Additionally, the WRM contracting officer would have been able to better
track the proceeds made from each sale of Government property and whether those sales
were properly credited to the WRM contract if he had documented Government property
sale proceeds on an SF 1424. Furthermore, WRM contracting personnel could have been
properly tracking sales of Government property and ensuring that proceeds from the sales
were credited to the WRM contract if the WRM contracting officer had executed his
property administration duties or delegated responsibility for property administration to
the ACOs in Southwest Asia.


Conclusion
WRM contracting personnel did not review Government property and approve DynCorp
to conduct 83 of 86 sales. Additionally, WRM contracting personnel did not ensure that
the proceeds from 51 sales of Government property, valued at approximately $273,000,
were fully credited to the WRM contract. WRM contracting personnel did not maintain
documentation supporting that proceeds from any of the 86 sales of Government
property, valued at approximately $600,000, were credited to the WRM contract.
                                           60
DynCorp may have conducted more than 86 sales of Government property and more than
77 vehicles may have been sold resulting in the Government not receiving additional
credits it was due; however, we could not determine whether additional sales occurred
because the Government maintained inadequate Government property sale records.

WRM contracting officials allowed DynCorp to perform an inherently Government
function by determining what Government property it was going to dispose of;
consequently, DynCorp may have disposed of assets it was not authorized to sell or assets
that were not appropriately classified as unusable scrap.

In order for WRM contracting officials to better track the sale of Government property
and ensure that the proceeds for the sales are properly credited to the contract, the WRM
contracting officer should delegate responsibility for property administration to the ACOs
located in Southwest Asia. The ACOs should require the contractor to submit an
SF 1428 to request sales of assets. Additionally, the ACOs should record the
Government’s approval for all sales of Government property on an SF 1423 and
document Government property sale proceeds on the SF 1424. Furthermore, WRM
contracting officials should review all SFs 1424 and DynCorp-submitted public vouchers
to ensure that all proceeds from the sale of Government property are properly credited to
the contract.


Recommendations, Management Comments, and Our
Response
F.1. We recommend the Commander, U.S. Air Forces Central:

       a. Ensure that DynCorp International credits the old war reserve materiel
contract (F44650-00-C0006) for $273,000, the amount of proceeds from Government
property sales that were not credited to the war reserve materiel contract so that the
funds can be put to better use.

       b. Perform a review of all sales of Government property from the old war
reserve materiel contract (F44650-00-C0006) to determine whether all Government
property sale proceeds were credited to the contract.

AFCENT Comments
The Chief of Staff for the Commander, AFCENT, agreed with the recommendation,
stating that a group of functional experts will be appointed to validate all sales of
Government property and all public vouchers. The Chief of Staff stated that the review
will be finished in February 2010, and the results of the review will be shared with the
contract closeout team. Additionally, the Chief of Staff indicated that the contract
closeout contracting officer will validate the proceeds from sales of Government property
and determine the amount not credited back to the contract; the contracting officer will
then notify DynCorp of the amount that needs to be paid to the Government by August
2010.

                                           61
Our Response
The Chief of Staff’s comments were responsive and met the intent of the
recommendation. No additional comments are required.

F.2. We recommend the Director, Acquisition Management and Integration Center,
Air Combat Command, require war reserve materiel contracting personnel to:

      a. Delegate responsibility for property administration on the new war reserve
materiel contract (FA4890-08-C-0004), in accordance with Federal Acquisition
Regulation Part 45, “Government Property.”

        b. Obtain training on property administration procedures, including the
contractor’s use and management of Government property, reporting and disposing
of contractor inventory, and ensuring that proceeds from sales are properly credited
to the contract.

      c. Obtain a Standard Form 1428, “Inventory Disposal Schedule,” from the
contractor to request sales of assets, as required by Federal Acquisition Regulation
Subpart 45.6, “Reporting, Reutilization, and Disposal.”

       d. Record the Government’s approval for all sales of Government property
on a Standard Form 1423, “Inventory Verification Survey,” as required by Federal
Acquisition Regulation Subpart 45.6.

      e. Document Government property sale proceeds on the Standard
Form 1424, “Inventory Disposal Report,” as required by Federal Acquisition
Regulation Subpart 45.6.

       f. Review all Standard Forms 1424 and DynCorp International-submitted
invoices to ensure that all proceeds from the sale of Government property is
properly credited to the new war reserve materiel contract (FA4890-08-C-0004).

        g. Review the contractor’s property control system annually by comparing
Government property records to inventory at each war reserve materiel storage
location, as required by Federal Acquisition Regulation 45.105, “Contractors’
Property Management System Compliance,” and DOD Manual 4161.2-M, “Manual
for the Performance of Contract Property Administration.”

Acquisition Management and Integration Center Comments
The Director of Installations and Mission Support, Air Combat Command, agreed with
the recommendation, stating that property administration support and authority has been
delegated to Acquisition Management and Integration Center logistics personnel and that
the personnel have completed appropriate training. The Director indicated that the
Acquisition Management and Integration Center has implemented policies for the use of
forms SF 1428, SF 1423, and SF 1424, and that the Acquisition Management and
Integration Center performs annual property system analyses, as required by the FAR.

                                          62
The Director stated that Acquisition Management and Integration Center will conduct
property management system analyses in November 2009, and if the plant clearance
officer and the property administrator determine that DynCorp’s property disposal
process is adequate, the QAEs will physically verify a sample of the property submitted
for disposal on the SF 1428. The Director stated that the plant clearance officer or the
property administrator will review 100 percent of the property submitted for disposal on
the SF 1428 if the Government property is considered sensitive or DynCorp’s property
disposal process is determined to be inadequate. The estimated completion date for the
property management system analyses is January 29, 2010. Additionally, the Director
noted that quality assurance personnel and ACOs are not administratively controlled by
the Acquisition Management and Integration Center.

Our Response
Comments from the Director of Installations and Mission Support, Air Combat
Command, were responsive and met the intent of the recommendation. We request that
the Director provide the results of the property management system analyses. No
additional comments are required.




                                           63
Finding G. Scope Considerations
The WRM contracting officer issued contract modifications outside the scope of the
WRM contract. Specifically, the contracting officer modified the WRM performance
work statement to include two additional requirements, valued at $23.5 million, that were
outside the scope of the original WRM performance work statement. This occurred
because the contracting officer failed to consider scope constraints when AFCENT
functional personnel and U.S. Naval Forces Central Command personnel requested the
use of the WRM contract for the additional requirements. As a result, the WRM
contracting officer did not properly compete the additional requirements and may not
have paid fair and reasonable prices.


Criteria
The United States Code provides guidance on competition requirements. The FAR
provides guidance on competition requirements and service contracting.

Section 253, Title 41, United States Code
According to 41 U.S.C. 253, an Executive agency is required to obtain full and open
competition through the use of competitive procedures in accordance with the FAR when
procuring property or services. This is known as the Competition in Contracting Act.

FAR Part 6: “Competition Requirements”
According to FAR Part 6, contracting officers must promote and provide for full and
open competition when awarding out-of-scope modifications to existing Government
contracts. The competitive procedures available for fulfilling the requirement for full and
open competition include sealed bids, competitive proposals, or a combination of
competitive procedures. A contract awarded without providing for full and open
competition must contain a reference to the specific authority under which the contract
was awarded.

FAR Part 37: “Service Contracting”
FAR Part 37 states that performance-based service contracts should include a
performance work statement. A performance work statement should describe the
required services in terms of the desired results rather than how the work should be
accomplished. Additionally, when using a performance work statement, agencies should
use measurable performance standards and financial incentives in a competitive
environment to encourage competitors to develop and institute innovative and cost-
effective methods of performing the work.




                                            64
Performance Work Statement
The WRM contracting officer awarded work that was outside the scope of the WRM
contract. The contracting officer modified the WRM performance work statement to
include two out-of-scope changes, valued at $23.5 million, without providing for full and
open competition.

Original Performance Work Statement
The original performance work statement, issued on April 20, 2000, stated that DynCorp
was responsible for asset receipt; accountability; serviceability; storage; security; periodic
inspection and test; and maintenance, repair, outload, and reconstitution of prepositioned
AFCENT WRM. The performance work statement required DynCorp to inspect,
inventory, and document the receipt of new WRM assets, supplies, and equipment.

Performance Work Statement Modifications
The WRM contracting officer issued two significant modifications to the performance
work statement without considering proper competition requirements. Numerous
contract modifications changed the performance work statement; however, WRM
contracting personnel electronically updated the performance work statement only twice.
The final version of the performance work statement, dated September 2007, contained
two requirements that the contracting officer had previously tasked DynCorp to perform
via contract modification:

      implement a High Mobility Multi-purpose Wheeled Vehicle (HMMWV) Refresh
       Program at Al Udeid Air Base, Qatar; and
      provide support for U.S. Navy munitions in Oman.

HMMWV Refresh Program
The WRM contracting officer modified the WRM contract to implement a HMMWV
Refresh Program. The HMMWV Refresh Program required DynCorp to receive
repairable HMMWVs from the field and return the HMMWVs to Air Force serviceability
standards. Additionally, DynCorp was to apply armor to unarmored vehicles that had
been operating in the field.

The WRM contracting officer requested DynCorp to develop a proposal for a HMMWV
Refresh Program to return 351 AFCENT HMMWVs operating in the U.S. Central
Command area of responsibility to Air Force serviceability standards at an average rate
of 9 HMMWVs per month. On January 29, 2007, DynCorp submitted a cost proposal to
the WRM contracting officer totaling approximately $23 million for the HMMWV
Refresh Program.

According to DynCorp’s proposal, the contracting officer tasked DynCorp to develop the
proposal on December 8, 2006. However, WRM contracting personnel could not provide
the PCO tasker from the contracting officer directing DynCorp to develop the proposal.
According to the contracting officer, the PCO tasker was generated by the AFCENT
vehicle functional managers. The contracting officer stated that he was unsure why the

                                             65
requirement arose, but that he requested the proposal based on a request from the vehicle
functional manager. However, the WRM contracting officer could not provide any
documentation supporting the vehicle functional manager’s request. The AFCENT
vehicle functional manager stated that AFCENT needed a depot-style overhaul program
for HMMWVs, but that shipping costs made it unfeasible for depots in the continental
U.S. to perform the work.

U.S. Navy Munitions Support
The WRM contracting officer modified the WRM contract to provide support for Navy
munitions located in Oman. The Navy munitions support required DynCorp to transport,
handle, maintain, repair, and inspect Navy munitions in Oman.

Naval Forces Central Command personnel relocated from Oman to Manama, Bahrain, in
2003; however, Naval Forces Central Command continued to store munitions in Oman.
When Naval Forces Central Command personnel relocated to Bahrain, they requested
that DynCorp perform facilities maintenance and munitions support functions through the
WRM contract. In November 2003, Naval Forces Central Command officials requested a
technical proposal from DynCorp to maintain Navy facilities and provide munitions
support in Oman for 3 months beginning in January 2004. The WRM contracting officer
stated that based on this request, he tasked DynCorp to prepare technical and cost
proposals. However, WRM contracting personnel could not provide the PCO tasker.
DynCorp submitted a technical proposal on January 8, 2004, and suggested that the Navy
entrust the required services to DynCorp for longer than 3 months. On January 19, 2004,
Naval Forces Central Command officials requested an additional technical proposal from
DynCorp to provide munitions support for 1 year. DynCorp’s subsequent technical
proposal included a period of performance through September 30, 2004, along with two
additional 1-year option periods and a 3-month phase-out period to coincide with the
existing terms of the WRM contract. According to DynCorp’s cost proposal, the total
estimated cost of the requirement for the entire period of performance, including the
option years, was $550,489. WRM contracting personnel could not provide the PCO
tasker authorizing DynCorp to proceed with the munitions support. DynCorp began
executing the requirement in FY 2005 and continued to perform Navy munitions support
services in Oman through the end of the WRM contract performance period. WRM
contracting personnel could not provide a memorandum of understanding between
AFCENT and Naval Forces Central Command documenting the details of the agreement
for Naval Forces Central Command’s use of the WRM contract to provide munitions
support in Oman.

Scope Determination
The performance work statement modifications were outside the scope of the original
performance work statement because they included work that AFCENT and DynCorp
had not contemplated or foreseen when they negotiated the original WRM contract. In
Freund v. United States, 260 U.S. 60 (1922), the U.S. Supreme Court stated that work
performed under a contract falls within the general scope of the contract if it could be
“regarded as fairly and reasonably within the contemplation of the parties when the
contract was entered into.” The test employed in determining whether work has been

                                            66
improperly added to a contract was further stated in American Air Filter Co., 57 Comp.
Gen. 567, 78-1 CPD para.443 (1978):

               The impact of any modification is in our view to be determined by
               examining whether the alteration is within the scope of the competition
               which was initially conducted. Ordinarily, a modification falls within
               the scope of the procurement provided that it is of a nature which
               potential offerors would have reasonably anticipated under the changes
               clause.

               To determine what potential offerors would have reasonably expected,
               consideration should be given, in our view, to the procurement format
               used, the history of the present and related past procurements, and the
               nature of the supplies or services sought.

The Air Combat Command initially awarded the WRM contract to DynCorp for the
operations, maintenance, and support of prepositioned AFCENT WRM with an estimated
cost of approximately $174 million. The $23 million HMMWV Refresh Program
required DynCorp to receive repairable HMMWVs from the field that may not be part of
WRM inventory, and return the HMMWVs to Air Force serviceability standards.
According to Air Combat Command personnel, the HMMWVs may be transferred into
the WRM vehicle inventory once DynCorp completes the refresh; however, if AFCENT
WRM has fully met the HMMWV vehicle requirement, the HMMWVs may be
transferred to a different deployed location or operating command. Based on the initial
WRM contract and performance work statement, the requirement to refresh Air Force
HMMWVs operating in U.S. Central Command, and constituting almost 15 percent of
the original estimated cost of the entire contract, was not included within the scope of the
original competition. Additionally, a requirement to provide operations, maintenance,
and support of Naval Forces Central Command munitions, not AFCENT munitions,
extends beyond the scope of the original competition.

Competition
WRM contracting personnel did not use appropriate competition procedures to award the
additional requirements. Additionally, WRM contracting personnel did not properly
justify the use of other than full and open competition, as required by the FAR.

HMMWV Refresh Program
According to a WRM procurement analyst, the approval for awarding the HMMWV
Refresh Program requirement to DynCorp without providing for full and open
competition was contained in the Justification and Approval for Other Than Full and
Open Competition prepared by AFCENT officials for the second WRM contract
extension from October 1, 2007, through September 30, 2008. According to the
Justification and Approval for Other Than Full and Open Competition dated May 4,
2007, and incorporated into the contract via modification P00101, dated September 7,
2007, DynCorp was responsible for the operation, maintenance, and support of
prepositioned AFCENT WRM. This included asset receipt; accountability;
serviceability; storage; security; periodic inspection and testing; and maintenance, repair,
outload, and reconstitution of pre-positioned AFCENT WRM. The Justification and

                                                 67
Approval for Other Than Full and Open Competition did not specifically discuss the
HMMWV Refresh Program or cite a specific authority for awarding the HMMWV
Refresh Program to DynCorp without competition, as required by the FAR. Furthermore,
the price negotiation memorandum, dated August 17, 2007, for the period of performance
extension stated that DynCorp was required to provide all labor, material, equipment, and
transportation necessary to perform all operations in accordance with the current
performance work statement at the time. As of August 17, 2007, the current performance
work statement was dated October 1, 2003, and did not include the HMMWV Refresh
Program. Therefore, the Justification and Approval for Other Than Full and Open
Competition prepared for the contract extension year does not pertain to the HMMWV
Refresh Program requirement and AFCENT officials did not properly compete the
requirement or properly justify a reason for using other than full and open competition in
accordance with the FAR.

Navy Munitions Support
A WRM procurement analyst, who was not part of the WRM program when the Navy
munitions support requirement arose, stated that the contracting officer obtained a legal
review that determined that the Navy munitions support was within the scope of the
contract. However, the legal review that included Navy munitions support did not
reference a determination regarding the contract scope. Additionally, the current
AFCENT Chief of Administrative Law could not determine whether the legal review was
intended to be advice regarding a scope determination based on the documentation in the
contract file. Another legal review for a different modification to the WRM contract,
performed by the same AFCENT Staff Judge Advocate who performed the legal review
that included Navy munitions support, explicitly stated that the review was for a scope
determination. The AFCENT Staff Judge Advocate approved the contracting officer’s
proposed change to the contract in that case because the work was within the general
nature of work originally contemplated by the parties. We concluded that had the legal
review that included Navy munitions support been intended to be advice regarding a
scope determination, the AFCENT Staff Judge Advocate would have stated so because
one legal review explicitly refers to a scope determination, while the legal review that
included Navy munitions support is silent on the subject. Therefore, the legal review that
included Navy munitions support does not serve as a determination regarding contract
scope.


Conclusion
The Competition in Contracting Act requires that agencies allow all sources capable of
satisfying the Government’s need to compete for a contract award. Congress
implemented the Competition in Contracting Act to increase the number of competitors
for Government acquisitions and to increase cost savings through lower, more
competitive pricing. Additionally, a competitive environment encourages competitors to
develop and institute innovative and cost-effective methods of performing the work.
However, by not competing these two requirements, AFCENT officials have no
assurance that they obtained fair and reasonable prices and that DynCorp provided the
best value to satisfy the Government’s requirements.

                                           68
Recommendation, Management Comments, and Our
Response
G. We recommend the Director, Acquisition Management and Integration Center,
Air Combat Command, ensure that war reserve materiel contracting officials follow
all competition requirements for the new war reserve materiel contract (FA4890-08-
C-0004) in accordance with the Competition in Contracting Act.

Acquisition Management and Integration Center Comments
The Director of Installations and Mission Support, Air Combat Command, agreed with
the recommendation, stating that the Air Combat Command Acquisition and
Management Integration Center has internal controls and performs internal reviews to
ensure compliance with applicable regulations.

Our Response
Comments from the Director of Installations and Mission Support, Air Combat
Command, were responsive and met the intent of the recommendation. No additional
comments are required.




                                          69
Finding H. Contract Quality Assurance
WRM QAEs did not adequately document acceptance of services performed by DynCorp
from September 2000 through March 2005. Additionally, the WRM ACO did not
maintain QAE surveillance reports that documented the validation of DynCorp’s
performance or the discrepancies between DynCorp’s performance and the WRM
contract quality standards for each surveillance performed prior to March 2005. This
occurred because the ACOs and QAEs did not comply with WRM quality assurance
surveillance plan requirements. As a result, AFCENT officials cannot be certain that
DynCorp adequately performed services that met WRM contract quality standards for
more than half of the contract life.


Criteria
FAR Part 46, “Quality Assurance,” states that the contract administration office must
maintain suitable records reflecting the nature of Government contract quality assurance
actions and decisions regarding the acceptability of products, processes, and
requirements, as well as action to correct defects.

FAR Part 46 also states that Government contract quality assurance will be performed
when necessary to determine whether services meet contract requirements. Quality
assurance surveillance plans should be prepared in conjunction with the preparation of
the statement of work. The plans should specify all work requiring surveillance and the
method of surveillance.

The Department of the Air Force Award Fee Guide requires that quality assurance
personnel maintain written records of the contractor’s performance in their assigned
evaluation areas that detail specific examples where improvement is necessary or desired;
improvement has occurred; and performance is below, meets, or exceeds contract
requirements.



Quality Assurance
WRM QAEs did not adequately document acceptance of services performed by DynCorp
from September 2000 through March 2005 because the ACOs and QAEs did not comply
with WRM quality assurance surveillance plan requirements. The quality assurance
surveillance plan stated that QAEs should review and evaluate DynCorp’s specific
actions taken to resolve discrepancies. The Executive Coordinating Agency issued
29 quality assurance surveillance reports27 from September 2000 through March 2005
that documented the inspection of contractor services and discrepancies found during


27
  A quality assurance surveillance report documents all the QAE surveillances for each function for a
given time period into one report.

                                                    70
surveillances; however, the quality assurance surveillance reports did not document
DynCorp’s corrective actions for QAE-identified discrepancies or the QAEs’ final
determination as to the acceptability of DynCorp’s corrective actions.

For example, the December 2000 quality assurance surveillance report stated that
munitions storage and inventory was given an unsatisfactory rating at the Al Udeid WRM
storage site. The QAE noted five discrepancies for munitions storage, which exceeded
the WRM contract performance standard of two discrepancies per building, per site, per
month. In addition, the QAE noted three separate discrepancies for munitions inventory,
which exceeded the WRM contract performance standard of one discrepancy per
inventory. The quality assurance surveillance report did not contain DynCorp’s
corrective action or the QAEs’ final acceptance of the corrective action; therefore, we
cannot determine whether DynCorp corrected noted discrepancies in order to meet
contract quality standards.

Additionally, the WRM ACO did not maintain QAE surveillance reports for each
surveillance performed prior to March 2005 that documented the validation of DynCorp’s
performance or the discrepancies between DynCorp’s performance and the WRM
contract quality standards. The WRM quality assurance surveillance plan stated the
WRM ACO should maintain all surveillance documentation throughout the contract life.
The WRM ACO was responsible for providing all files to the WRM contracting officer at
the conclusion of the contract for inclusion in the contract file. The WRM quality
assurance surveillance plan also required that the contracting officer archive all quality
assurance documentation when the WRM contract expired.

The WRM ACO could not provide surveillance reports from September 2000 through
March 2005 for the nine WRM functional areas. Three AFCENT functional managers
located at Shaw Air Force Base were able to provide 25 QAE reports; however, the
WRM ACO should have maintained and provided the reports. Each QAE should have
performed at least 1 surveillance at each WRM site per quarter for their respective
functional area; therefore, each of the 9 functional area QAEs should have provided a
minimum of 108 QAE reports if the QAE had performed 1 surveillance per quarter from
September 2000 through March 2005 at each of the 6 WRM sites.

The quality assurance surveillance reports issued after March 2005 adequately
documented inspection and acceptance of services.28 Specifically, the quality assurance
surveillance reports contained imbedded QAE surveillance reports that documented each
service inspection and discrepancies found during the inspection. Each discrepancy was
written up as a surveillance discrepancy report. Each surveillance discrepancy report
provided a detailed explanation of the discrepancy as well as DynCorp’s response to the
discrepancy. DynCorp’s response included the root cause, corrective action, and future
preventative action for the discrepancy. The surveillance discrepancy report also stated
whether the QAE accepted DynCorp’s response and the date the discrepancy was fixed.



28
     See findings C and F for exceptions to adequate inspection and acceptance of services.

                                                      71
Conclusion
WRM contracting personnel should have maintained suitable records documenting
DynCorp’s performance according to contract terms. The records should have detailed
specific examples of where improvement was necessary or improvement had occurred,
and whether DynCorp’s performance was at, above, or below contract requirements.

However, the Government did not have reasonable assurance that DynCorp adequately
performed services that met WRM contract quality standards for more than half the life
of the contract. The Government did not have certainty that once a QAE identified a
discrepancy, that DynCorp corrected the discrepancy and effectively implemented
preventative action to prevent future discrepancies. Finally, award fee determinations
may not have been adequately supported because QAE surveillance documentation was
either not maintained or did not contain DynCorp’s corrective actions or the QAEs
acceptance of those actions for noted discrepancies.


Recommendations, Management Comments, and Our
Response
H. We recommend the Director, Acquisition Management and Integration Center,
Air Combat Command, require war reserve materiel contracting personnel to:

        1. Retain all surveillance documentation, both hard copy and electronically,
for the new war reserve materiel contract (FA4890-08-C-0004).

Acquisition Management and Integration Center Comments
The Director of Installations and Mission Support, Air Combat Command, agreed with
the recommendation, stating that Acquisition Management and Integration Center QAEs
maintain electronic copies of all surveillance activities. The Director also stated that the
system that stores surveillance information is backed up daily on-site and weekly off-site
to ensure data integrity and security. Additionally, the Director indicated that Acquisition
Management and Integration Center quality assurance personnel can retrieve and provide
hard copy surveillance records at any time.

Our Response
Comments from the Director of Installations and Mission Support, Air Combat
Command, were responsive and met the intent of the recommendation. No additional
comments are required.

       2. Develop a process and procedures for certifying that services have been
inspected and accepted.

Acquisition Management and Integration Center Comments
The Director of Installations and Mission Support, Air Combat Command, agreed with
the recommendation, stating that QAEs use the integrated performance management plan

                                            72
and surveillance schedules to inspect services, and the QAEs provide a certificate of
service each month. The Director also stated that Acquisition Management and
Integration Center personnel review invoices for accuracy and the program manager
accepts services electronically.

Our Response
Comments from the Director of Installations and Mission Support, Air Combat
Command, were responsive and met the intent of the recommendation. No additional
comments are required.




                                            73
Appendix: Scope and Methodology
We conducted this performance audit from February 2008 through September 2009 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

We announced the project in February 2008 in order to initiate the lengthy country and
theater clearance process. We began audit fieldwork in April 2008.

We evaluated whether AFCENT contracting officials properly managed and administered
the DynCorp WRM contract. We conducted interviews and collected, reviewed, and
analyzed documents from AFCENT, DynCorp, the Executive Coordinating Agency,
DCAA, and the Defense Contract Management Agency, dated April 2000 through April
2009.

We reviewed the WRM basic contract, awarded on April 20, 2000, to DynCorp, and
120 subsequent contract modifications, dated May 1, 2000, through December 16, 2008.
We reviewed contract file documentation including DynCorp cost proposals;
Government price negotiation memoranda; DD Forms 1391, “Military Construction
Project Data”; award fee files; quality assurance surveillance reports; Air Force Form 9
funding documentation; DCAA audit reports; DynCorp invoices; AFCENT-generated
spreadsheets; and e-mail correspondence. We also reviewed DynCorp property sale
records including Government property sale lists, sale award letters, and DynCorp
general ledger account information.

We interviewed contracting and program office personnel at AFCENT headquarters and
the Executive Coordinating Agency. We interviewed the AFCENT Director of Logistics,
the AFCENT Deputy Director of Logistics, and the Commander of the Executive
Coordinating Agency. We interviewed the WRM Program Manager, the War Reserve
Materiel Officer, WRM functional area managers, QAEs, and other program office
personnel. We interviewed the PCO, the ACOs, and other contracting personnel
responsible for the WRM contract. We also interviewed AFCENT engineering
personnel. We interviewed supervisory and staff auditors at the DCAA Arlington, Texas,
branch office and the Corporate Administrative Contracting Officer at the Defense
Contract Management Agency Dallas, Texas, branch office. We interviewed contractor
personnel at DynCorp headquarters; contractor personnel at the DynCorp program
support office in Muscat, Oman; and contractor personnel at the Thumrait, Oman; Seeb,
Oman; Al Udeid Air Base, Qatar; Manama, Bahrain; and Al Jaber Air Base, Kuwait,
WRM storage locations. We also interviewed functional area managers and personnel at
Air Combat Command and financial personnel at Naval Central Command.
Additionally, we interviewed accounting personnel at the Defense Financial and
Accounting Service.

                                           74
We reviewed applicable contracting regulations, including the United States Code, FAR,
DFARS, DOD Financial Management Regulation, DOD Manuals, Air Force Guidance,
and the DCAA Contract Audit Manual.

This audit contained scope limitations that may have impacted the results of the audit.
The contract files for most of the 120 modifications were materially incomplete. The
contract files did not contain complete support documentation for contract funding, minor
military construction, contracting officer authorizations to DynCorp for additional work,
sales of Government property, and out-of-scope work. Inadequate documentation
resulted in either no audit trail or one so complex that accountability was highly
questionable.


Use of Computer-Processed Data
We did not use computer-processed data to perform this audit.


Use of Technical Assistance
We did not require technical assistance for the execution of this audit.


Prior Coverage
During the last 5 years, the Air Force Audit Agency issued one report discussing
AFCENT’s WRM program. Through the Freedom of Information Act, Air Force Audit
Agency reports can be obtained by e-mailing afaafoia@pentagon.af.mil. Air Force Audit
Agency reports can also be accessed from .mil domains over the Internet at
https://wwwd.my.af.mil/afknprod/ASPs/cop/Entry.asp?Filter=OO by those with
Common Access Cards who create user accounts.

Air Force
Air Force Audit Agency Report No. F2009-0003-FD3000, “United States Air Forces
Central War Reserve Materiel,” January 7, 2009




                                             75
Department of the Air Force Comments




                  Click to add JPEG file




                                 76
Click to add JPEG file




               77
Click to add JPEG file




               78
Click to add JPEG file




               79
Click to add JPEG file




               80
Click to add JPEG file




               81
Click to add JPEG file




               82
Click to add JPEG file




               83
Click to add JPEG file




               84
Click to add JPEG file




               85
Click to add JPEG file




               86
Click to add JPEG file




               87
Click to add JPEG file




               88
Defense Contract Audit Agency Comments




                  Click to add JPEG file




                                 89
Click to add JPEG file




               90
Click to add JPEG file




               91
Click to add JPEG file




               92
